<html>
<title> - WORKFORCE FOR THE 21ST CENTURY: ANALYZING THE PRESIDENT'S MANAGEMENT AGENDA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                    WORKFORCE FOR THE 21ST CENTURY:
              ANALYZING THE PRESIDENT'S MANAGEMENT AGENDA

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2018

                               __________

                           Serial No. 115-96

                               __________

Printed for the use of the Committee on Oversight and Government Reform








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available via the World Wide Web: http://www.govinfo.gov
                       http://oversight.house.gov

                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-422 PDF                WASHINGTON : 2018                 






                     
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana
Vacancy

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
                 Kevin Ortiz, Professional Staff Member
     Julie Dunne, Government Operations Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 16, 2018.....................................     1

                               WITNESSES
                                Panel I

The Honorable Margaret Weichert, Deputy Director for Management, 
  U.S. Office of Management and Budget
    Oral Statement...............................................     5
    Written Statement............................................     7
The Honorable Jeff Pon, Director, U.S. Office of Personnel 
  Management
    Oral Statement...............................................    12
    Written Statement............................................    14

                                Panel II

Mr. Bill Valdez, President, Senior Executives Association
    Oral Statement...............................................    41
    Written Statement............................................    43
Mr. Max Stier, President and CEO, Partnership for Public Service
    Oral Statement...............................................    61
    Written Statement............................................    64
Ms. Jacqueline Simon, Policy Director, American Federation of 
  Government Employees
    Oral Statement...............................................    76
    Written Statement............................................    78

                                APPENDIX

Letter of December 19, 2017, from Mr. Cummings to Office of 
  Management and Budget submitted by Ms. Maloney.................   104
Letter of February 16, 2018, from Office of Management and Budget 
  to Mr. Cummings submitted by Ms. Maloney.......................   106
The National Treasury Employees Union Statement for the Record 
  submitted by Mr. Connolly......................................   108
Response from Ms. Weichert, Office of Management and Budget, to 
  Questions for the Record.......................................   116
Response from Mr. Pon, Office of Personnel Management, to 
  Questions for the Record.......................................   119
Response from Mr. Stier, Partnership for Public Service, to 
  Questions for the Record.......................................   133

 
                    WORKFORCE FOR THE 21ST CENTURY:
              ANALYZING THE PRESIDENT'S MANAGEMENT AGENDA

                              ----------                              


                        Wednesday, May 16, 2018

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 1:30 p.m., in Room 
2154, Rayburn House Office Building, Hon. Trey Gowdy [chairman 
of the committee] presiding.
    Present: Representatives Gowdy, Jordan, Amash, Meadows, 
DeSantis, Walker, Blum, Hice, Russell, Grothman, Hurd, Palmer, 
Mitchell, Cummings, Maloney, Norton, Clay, Lynch, Connolly, 
Lawrence, Krishnamoorthi, Raskin, DeSaulnier, and Sarbanes.
    Chairman Gowdy. The Committee on Oversight and Government 
Reform will come to order. Without objection, the presiding 
member is authorized to declare a recess at any time. We do 
expect a vote series around 2:00 this afternoon. At that time, 
we will recess for the duration of votes, likely around 30 
minutes, and then reconvene shortly thereafter.
    With that, I will recognize the gentleman from Maryland, 
the ranking member of the committee, Mr. Cummings, for his 
opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And 
welcome to our witnesses today for this very important hearing.
    If the United States Government were a business, it would 
be in the service industry. Most of the expenses in the service 
industry are for salaries and retirement benefits. In other 
words, most of the expenses are for the workers who provide the 
services.
    The people of the United States Civil Service are 
secretaries; they are the firefighters; the scientists, and 
attorneys; you know the ones, the janitors that are cleaning 
the bathroom, the nurses, and the doctors. They direct air 
traffic to keep our skies the safest in the world. They keep 
our military planes, helicopters, and vehicles in optimal 
condition.
    They care for our veterans and our senior citizens. They 
ensure that our Social Security benefits are delivered on time 
and accurately. They enforce the laws of the Nation, and 
protect the environment for generations yet unborn.
    They are the ones that pick up the dead bodies. Come on 
now. They do the jobs so often that nobody wants to do. And 
when the government is not working as it should for our 
citizens, they blow the whistle out of a solemn sense of duty 
and patriotism.
    Without those brave Federal employees, this committee could 
not perform our job of oversight.
    But government is not a business. The government's purpose 
is to promote the interests of the American people, not to make 
a profit.
    Federal workers perform vital and essential tasks for our 
Nation, without fear or favor. Our dedicated civil servants do 
this work without any intention of getting rich.
    In other words, they can work a lifetime, quite often, and 
make far less than they would have made had they been in 
private industry. But they feel a duty, they feel a calling to 
help people. They are public servants, and they support middle-
class families.
    Unfortunately, it appears that President Trump does not 
value these workers or the critical services they provide to 
the American people. Today's hearing will expose the aggressive 
attacks the Trump administration is waging on middle-class 
Federal workers and their agencies.
    Earlier this month, the Trump administration submitted to 
Congress a draconian proposal to cut more than $143 billion 
over the next 10 years from the pay and benefits of middle-
class Federal workers, retirees, future retirees, and even 
their survivors.
    The Trump plan could eliminate, or would eliminate, cost-
of-living-adjustments for current and future retirees in the 
Federal Employee Retirement System, and it will reduce COLAs 
for other retirees and survivors, including children who 
suffered a loss of a parent. This provision would erode the 
value of retirement income, and would not even keep pace with 
inflation. We can be a better country than that.
    The Trump plan would impose higher costs on employees for 
their pensions without any corresponding increase in retirement 
benefits. I don't care how you look at it; this is a wage cut.
    The Trump plan would reduce retirement pay by replacing the 
existing system, which is based on 3 consecutive years of 
highest pay salary, with a system based on 5 years of highest 
pay. This provision would lower the retirement pay for many 
Federal employees.
    Enacting the changes that President Trump demands under the 
guise of reform would betray the promises our Nation has made 
to Federal workers who dedicate their lives to public service, 
as well as their families. It also would severely degrade 
recruitment, retention, and the performance of our civil 
service.
    This is not the first time Republicans had degraded the 
paychecks of public servants. Over the past decade, they have 
cut Federal pay and benefits by $195 billion, according to the 
nonpartisan Congressional Budget Office. They instituted a 3-
year pay freeze that costs Federal workers $98 billion. They 
increased required employee contributions to Federal retirement 
programs twice, and cut employee take-home pay by an estimated 
$21 billion.
    More than 755,000 Federal employees were furloughed due to 
sequestration cuts, costing Federal employees more than $1 
billion. And Federal workers received pay adjustments that were 
lower than specified by statute from 2014 through 2018, costing 
them an additional $75 billion.
    What makes the Trump administration's proposal so 
disappointing is that it comes after the President and the 
Republicans in Congress enacted $1.5 trillion in tax cuts for 
wealthy individuals and corporations. Who is going to fund 
those tax cuts for the rich? Middle class workers, that's who. 
And that is just absolutely wrong.
    President Trump has demonstrated contempt for public 
servants from his first day in office when he prohibited 
Federal employees from filling vacant positions. He has 
attacked government watchdogs, ethics officials, law 
enforcement officials, and career government employees. His 
administration has issued illegal gag orders to try to stop 
whistleblowers from telling Congress what their agencies are 
really doing, and his agencies are attacking employee unions 
that protect whistleblowers from retaliation.
    We need to reject this latest proposal in a string of 
terrible proposals, this sabotage of the United States civil 
service. We need to begin building back up the confidence of 
our Federal employees. They have already paid billions to help 
pay down the debt. They should not be asked now to help fund 
tax cuts for the rich.
    And I say to our Federal employees, thank you for all that 
you do every day and that you are doing today, for you are 
giving your blood, sweat, and tears to lift us all up. And with 
that, Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman from Maryland yields. The 
gentleman from North Carolina, who has worked tirelessly on 
this issue, Mr. Meadows, is recognized for an opening 
statement.
    Mr. Meadows. I thank you, Mr. Chairman, for your leadership 
on this effort and, certainly, for the witnesses who are here 
today as we start to look at this.
    Certainly, on March 20 of this year, the administration 
released the President's Management Agenda. As we well know, 
that agenda lays out the administration's long-term vision for 
improving the performance of the Federal Government; states the 
specific goals of this administration to improve the ability of 
agencies to deliver mission outcomes. And I think that is a 
critical point, is as we look at those outcomes, it is 
certainly something that all Americans can welcome, provide 
excellent service.
    In this very hearing, we have had a number of hearings 
where, with the IRS, and the ranking member and I have said 
that the service levels in terms of getting a live person is 
not something that we ought to be bragging about. So as we look 
at that, it is really about being an effective steward of the 
American taxpayers' dollars.
    This administration has identified three key drivers of 
this transformation: Information technology, modernization, the 
data accountability and the transparency, and then certainly, 
the workforce for the 21st century. All three of these drivers 
are certainly interconnected, and success in improving that 
performance of the Federal Government cannot be achieved 
without progress in all three of those areas.
    Today, however, we will focus on that third driver, 
developing a workforce for the 21st century, which is a core 
jurisdictional responsibility of this committee under the House 
rules.
    Federal employees underpin nearly all of the operations of 
the government, and we must ensure that we continue to hire and 
retain the best and brightest.
    I have been very disappointed to find that many times, 
Members of Congress only go to Federal agencies to complain, 
not to assess what is going on; and so, I have found it very 
illuminating and very rewarding, quite frankly, with our 
Federal workforce when we go in, to actually have conversations 
with the people that do the work. And I have been fascinated by 
their ability to give great suggestions on how we might improve 
the efficiency of the Federal workforce.
    In fact, I would also say, their recommendations are better 
than any that would come out of this committee on either side 
of the aisle, because they understand both the barriers, the 
roadblocks, and also the disincentives that we have within our 
40-year old civil service way of doing business.
    So I want to thank both of you. As we look at this 
particular issue, I think probably the most important thing 
that we can do is stay laser-focused on the ultimate goal of 
this third rail, which is looking at how do we retain, how do 
we make sure that we properly compensate--and yes, you are 
hearing that from a Republican--and how do we make sure that as 
we deal with all of this, whether it is the annual survey that 
we sometimes--in fact, we get, the annual survey--I see my good 
friend in the audience here. As we look at the surveys, how do 
we actually take those and make an action point?
    This committee is committed to do that in a bipartisan 
fashion, but I also think that it is going to require many of 
us to perhaps pull away the old thinking that we have that it 
has to be this way or that way or no way, and work in a real 
bipartisan way to make sure that we have an effective 
workforce.
    So I look forward to hearing from both of the witnesses, 
and I thank the chairman for his leadership.
    Chairman Gowdy. The gentleman from North Carolina yields 
back.
    We are pleased to introduce our first panel of witnesses: 
The Honorable Margaret Weichert, Deputy Director for Management 
in the Office of Management and Budget, and the Honorable Jeff 
Pon, Director of the Office of Personnel Management.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify, so I would ask you to please stand and 
raise your right hands.
    Do you solemnly swear that the testimony that you are about 
to give will be the truth, the whole truth, and nothing but the 
truth, so help you God?
    Let the record reflect that the witnesses answered in the 
affirmative.
    I think you are both familiar with our timing and lights, 
so rest assured that your opening statements will be read by 
all the members, and you are welcome to take 5 minutes to 
summarize. We will recognize you first, Ms. Weichert.

                            PANEL I

                       WITNESS STATEMENTS

              STATEMENT OF HON. MARGARET WEICHERT

    Ms. Weichert. Chairman Gowdy, Ranking Member Cummings, and 
members of the committee, thank you for the opportunity to 
appear before you today to discuss the President's Management 
Agenda, or PMA, which is designed to modernize government for 
the 21st century.
    Most Americans don't think about the Federal Government 
every day, but when they need government services, they expect 
them to work. The PMA lays out a long-term vision for effective 
government that achieves missions, and enhances the services 
upon which the American people depend. By modernizing the 
Federal Government in key areas, we will improve the ability of 
agencies to deliver mission outcomes, provide excellent 
service, and effectively steward taxpayer resources.
    The public believes that the Federal Government serves 
critical roles, and in some areas, performs them well. Yet, 
public trust in the Federal Government continues to decline, 
currently sitting at near-historic lows. While the Federal 
Government's business is to serve the American people in core 
mission areas, this becomes too bureaucratic and complex to 
meet the needs of the 21st century.
    The Federal Government still operates with many 
capabilities and processes established in the mid-20th century, 
if not earlier, despite dramatic changes in technology, 
society, and the needs of the American people in the digital 
age. No matter how well-intentioned, complicated and 
duplicative Federal processes can create confusion among 
veterans, farmers, job seekers and others trying to interact 
with their government. Those in government must recognize that 
citizens today are not well-served by the same approaches, 
technology, and skill sets of the past. We face complex and 
interconnected challenges that cannot be solved via siloed 
efforts.
    If we want to get traction on fixing real barriers to 
change, we must use broader system-level thinking to address 
aging technology infrastructure, disconnected data, and an 
outmoded civil service framework.
    So modernizing government for the 21st century requires 
work in three interconnected areas: Modern information 
technology; data accountability and transparency; and a modern 
workforce that enables senior leaders and front-line managers 
to align staff skills with evolving mission needs. Our 
management of the workforce will have to be more nimble and 
agile with the capacity to reskill and redeploy the workers we 
already have to keep pace with ever faster change.
    We cannot underestimate how tightly woven these three areas 
are, or the extent to which people are the linchpins of 
success. The Federal Government is the largest single direct 
employer in the Nation. Taxpayers invest more than $200 billion 
annually in the productivity of our 2.1 million civilian 
Federal employees. An even larger ``indirect'' workforce of 
people employed by contractors supports mission work. We owe it 
to the public to ensure that we are spending these dollars 
wisely.
    And it is people who drive the business of government. We 
can purchase new IT systems, but do our Federal employees have 
the optimal skills and tools to negotiate contracts and keep 
computer networks safe and secure? We can turn to data to drive 
results, but do we have enough data scientists who know what 
the data means and can figure out how to fill in our knowledge 
gaps?
    As the majority of our career civil servants approach 
retirement age, have we positioned the Federal Government to 
compete effectively for the next generation of highly-qualified 
individuals needed for key roles?
    Today, the overarching answer to these questions is no. 
Why? It starts with the Federal civil service system. The job 
classification system is outdated and unwieldy. The 
compensation structure is overly rigid. The lengthy hiring 
process often results in top job candidates taking jobs 
elsewhere before we can extend an offer. Employees and managers 
alike agree that the existing employee performance management 
system fails to reward the best and address the worst 
employees.
    The reality is that today's Federal personnel system is a 
relic of an earlier era. It is rooted in the Pendleton Civil 
Service Reform Act of 1883, and the Classification Act of 1923. 
The Civil Service Reform Act of 1978 made a series of changes, 
including creating the Office of Personnel Management, but even 
these reforms were enacted long before many current Federal 
workers were even of working age.
    In the intervening years, a complicated web of process 
requirements, and confusing suboptimal policies have resulted 
in an archaic system that does not address the needs of the 
Federal workforce.
    So a reexamination of the Federal human resource function 
is needed. Healthy organizations are designed to change and 
adapt, and the United States government is no exception. In 
ratifying the Constitution, our Founders sought to establish a 
durable governing framework that would ``establish justice, 
insure domestic tranquility, provide for the common defense, 
promote the general welfare, and secure the blessings of 
liberty.''
    Our Federal workforce goes to work each day dedicated to 
this constitutional vision, so we must take care to ensure that 
existing government policies and procedures help us to better 
achieve the Founders' goals, and do not hinder the workforce in 
pursuing the mission, service, and stewardship goals of 
government.
    Thank you, Mr. Chairman.
    [Prepared statement of Ms. Weichert follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Yes, ma'am. Ms. Weichert, thank you.
    Mr. Pon, you are recognized for 5 minutes.


                STATEMENT OF HON. JEFF T.H. PON

    Mr. Pon. Chairman Gowdy, Ranking Member Cummings, and 
members of this committee, my name is Jeff T. H. Pon. I am the 
Director of the U.S. Office of Personnel Management.
    Today is my first time before this committee as the 
Director of OPM. I am excited to be here to discuss the 
President's Management Agenda. This is an especially dynamic 
topic for this administration which, under the leadership of 
President Trump, is championing civil service reform concepts.
    Working together with the Office of Management and Budget, 
Margaret and I, and agencies and partners in developing the 
rollout of the PMA, I believe the work is off to a strong 
start.
    The civil service system is long overdue for an update. The 
last time there was meaningful overhaul of Federal personnel 
systems was in 1978. President Trump is the sixth President 
since overhauling the Federal personnel system, and then there 
was a lot of change between the intervening years. However, 
those rules governing the civil service have not kept up to 
pace.
    Today, Federal hiring and our pay systems are not simple. 
As the private sector has found out adaptive ways to market 
sensitivities, the Federal personnel system has remained 
relatively unchanged and static. Federal jobs can take 
sometimes more than a year to fill, and hiring managers often 
are frustrated by what they perceive as layers of rules and 
cumbersome and inefficient processes.
    Specific challenges can emerge when the Federal Government 
needs to provide a targeting hiring strategy to address 
emerging needs and threats. This is not to say that we should 
abandon the core principles of our current Federal personnel 
system, and will remain a strong advocate for those principles.
    For example, we all agree that merit systems principles and 
the existence of Federal employment commitments such as those 
made to our Nation's veterans should continue to hold strong. 
While retaining these principles, though, we have an 
opportunity to strengthen our execution of the Federal employee 
experience.
    Today's workforce is increasingly shifting towards a 
``gig'' economy, where employees work for shorter periods of 
time in mission-focused areas. Our ability to accommodate this 
in the Federal work employment is constrained by our rules and 
system of design at the time when most workers don't expect to 
sign up for a long career.
    The current rules can stymie innovation and, in addition, 
like fostering public-private exchanges between the Federal 
Government and the private sector. We should also examine the 
current practices to bringing in students and recent grads to 
be confident we are providing the best opportunities for 
individuals starting new chapters in their careers. By 
addressing bureaucratic hurdles, we can better align the 
Federal Government's practices and the practices to the private 
sector.
    Further, as workers enter their careers, we should prize 
mobility over stability. We should seek avenues to give 
talented individuals opportunities to work in short-term jobs 
with portable benefits.
    As OPM modernizes key elements of the civil service, our IT 
systems will need to keep pace. The world is becoming 
increasingly paperless, and to address this IT challenge, OPM 
will create a government-wide employee digital record that will 
make government-wide H.R. Data accessible in a secure cloud 
environment, and employees' records will include data from 
various stages of an employee's career, which will then be 
available to the employees' access for anytime anywhere.
    We will do this by identifying cost savings areas and 
opportunities for building greater protections for our systems, 
while retiring existing systems as better ones become 
available.
    As we move forward, our best resource will always be our 
people. The Federal Government should honor high performers and 
those with mission-critical skills through creative, 
innovative, and mechanisms that the administration's proposed 
workforce fund--the workforce fund would allow agencies to 
better target pay incentives for recruitment and retention for 
top-performing employees with critical skill sets.
    Further, through careful planning and consideration of the 
results presented to each agency through tools like the Federal 
Employee Viewpoint Survey, agencies can assess their successes 
and address areas where they may be lagging.
    Finally, in my communications role as Director of OPM, I 
will make regular celebration of our Federal workforce. It will 
be a cornerstone of my job. Our Federal workers need a strong 
champion, and I am more than proud to fulfill that duty.
    Thank you again for inviting me to testify, and I am happy 
to answer any questions you may have.
    [Prepared statement of Mr. Pon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Mr. Pon.
    The gentleman from North Carolina is recognized for his 
questions, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you both for 
your opening testimony.
    And so I guess, I ask the obvious question that we continue 
to come to these hearings, we continue to hear great opening 
statements. Why is this going to be any different than any 
other time in the last 40 years?
    Ms. Weichert.
    Ms. Weichert. I think it's a great question, and I think 
the thing that is different this time is we are really looking 
at that system-level thinking, so solving problems as complex 
as the ones that we face in balancing mission, service, and 
stewardship, and in dealing with actually how we deliver 
services in the digital age is complex, and it can't be solved 
in a silo.
    And what I mean by that is, solving people issues without 
looking at data, solving people issues without looking at the 
technology that those people have to deliver the services that 
they are there to deliver, is not the leading practice. It's 
not the leading practice for mission delivery, and it's not the 
leading practice for serving our citizens the way they need to 
be served. And obviously, it also is not the most cost-
effective way of delivering those services.
    So really, what's different is taking this integrated 
cross-functional view and cross-agency view from an enterprise 
perspective.
    Mr. Meadows. Mr. Pon.
    Mr. Pon. In human resources we always look for two things 
in candidates: One is, do they do it for a living; and are we 
lucky to have them?
    I do this for a living. I am a human resource professional 
for over 25 years. I am probably one of the only OPM directors 
that have had that significant experience, both Federal, and 
also in the private sector.
    I can appreciate a lot of the challenges that we have in 
the Federal Government; time to hire, background checks, being 
paper-based. Many of these things can be overcome. It's not a 
question of technology anymore. We actually have the technology 
that works on a private phone but not on our government phones. 
We need to make that transition, we need to make sure that we 
have projectized-type execution.
    We have start and stops for different things, and that's 
what the President's Management Agenda is doing.
    In our 21st Century Workforce Plan, we have subcommittees 
and sub goals with projectized plans, with milestones. We will 
be able to share those progress and results each and every 
quarter with you.
    I am actually proud to be a part of the PMA because I was a 
part of another administration's PMA, and we have a track 
record of results and successes, and I look forward to seeing 
those successes on this administration as well.
    Mr. Meadows. All right. One of the tools that I use is 
actually a survey that the Partnership for Public Service 
actually provides to us each and every year. And on there, we 
have employees who identify that one of the--really, the 
motivator is the fact that senior management won't take the 
appropriate action; whether it is either with merit increases, 
or whether it is with developmental needs. So how are we going 
to do that, especially in light--it was interesting, a GAO 
report showed 99.6 percent of permanent, non Senior Executive 
Service employees, in 2013, were rated fully successful or 
above, 99.6. Now, I don't know of any place that is that 
efficient or that good.
    So how do we make sure that our managers are properly 
recognizing good performance and dealing with those poor 
performers? How do we do that?
    Mr. Pon. Well, we have a lot of different programs that are 
teaching our supervisors and managers.
    Mr. Meadows. But it's more than just teaching.
    Mr. Pon. It's a mindset.
    Mr. Meadows. If you look at the surveys, it's not that they 
don't know; it's that we have created a system that makes it so 
laborious to deal with it that they don't deal with it. You 
know what they do? Is they ship them from here to there and 
there to there, and so they never get out of the system, they 
just go to a different agency. So how are we going to deal with 
that?
    Mr. Pon. We need to streamline the process for making sure 
that if there are performance differences, giving the employee 
a chance to either correct them, but not go from each place, 
from OIG to LRER to EEO. All of these different places have 
different processes. We need to come up with a single process 
for streamlining that type of a performance conversation so 
that managers and employees can actually get on an even footing 
and make sure that they can make some tough decisions if they 
need to.
    Mr. Meadows. I have 18 seconds. Ms. Weichert.
    Ms. Weichert. Okay, really quickly, we are actually looking 
at how do we use some of the authorities that Congress has 
given to specific agencies like the Veterans Administration, 
and how we might appropriately apply them across the civilian 
workforce, and using the President's Management Council and the 
workforce cap goal under the PMA to do that.
    Mr. Meadows. Thank you, Mr. Chairman, and I yield back.
    Chairman Gowdy. The gentleman from North Carolina yields 
back. The gentlelady from the District of Columbia is 
recognized.
    Ms. Norton. Thank you very much, Mr. Chairman, and I thank 
the witnesses for appearing. I was impressed with your 
testimony. I, in a prior life, ran a Federal agency, and at the 
time, the important issue was efficiency, so I endorse your 
ideas to make the agencies more efficient.
    I also think you will agree that you can't have an 
efficient agency if the workforce isn't right there pulling the 
oars with you. Can I accept that--do you accept that personnel 
is key to greater efficiency?
    Ms. Weichert. Absolutely.
    Mr. Pon. Absolutely.
    Ms. Norton. Well, you are--the Department of Education--
this really goes to Mr. Pon. The Department of Education is 
currently in negotiations, labor negotiations, and there are 
very troubling accusations that allege that a toxic work 
environment exists there. If that is what the newspapers are 
saying, if that's what the employees are saying, then I'm 
trying to understand what it will take to make sure that your 
management improvements take hold.
    So I think what I should ask you, Mr. Pon, is, if you can 
assure the committee that negotiations that are apparently now 
underway will proceed in good faith, and that you will meet and 
negotiate in good faith with the union so that we can proceed 
accordingly with the management reforms that you have just 
discussed.
    Mr. Pon. Delegate Norton, thank you for that question. I am 
a relationship builder. Even early on, I have only been here 9 
weeks, but I have met with labor union presidents, and I will 
continue to do that. It is very important for me to make sure 
that we have lines of communication and relationships. We don't 
want to close the door on those relationships because it's very 
important to hear their views. We might not always agree on 
things, but we will at least have the dialog.
    Ms. Norton. In meeting with the head of the union, I take 
it you said, whatever union it is, were you aware of, and did 
you discuss pending charges of bad faith, that is, formal 
charges in the negotiations process?
    And Mr. Chairman, may I ask that those charges be made a 
part of this record?
    Mr. Pon. We did not in that discussion, and one of the 
reasons why is that education has a local and OPM does not 
interfere in local collective bargaining unit agreements. We 
represent the Federal.
    Ms. Norton. I'm talking about at the Department of 
Education, Mr. Pon.
    Mr. Pon. I'm with the U.S. Office of Personnel Management.
    Ms. Norton. I know it, but that's the office that has 
jurisdiction over personnel management in all the offices. I'm 
not talking about the D.C. or the Virginia collective 
bargaining agreement with the teachers union here. I am talking 
about people or employees now at the Department of Education.
    You mean you met with the union and you all didn't even 
discuss this? And the union didn't raise that they are having a 
terrible time in collective bargaining, and these notions of a 
toxic work environment didn't come up? And they said just 
pleased to meet you, Mr. Pon, glad to have you on board. Is 
that all you discussed?
    In fact, what did you discuss, Mr. Pon?
    Mr. Pon. We discussed certain issues such as a pay freeze; 
such as what our intentions were to help train employees and 
use the workforce funds so that we could better up-skill 
certain people so that the----
    Ms. Norton. So you didn't mention the negotiations process 
now underway?
    Mr. Pon. We did not discuss that.
    Ms. Norton. Are you aware that there is no general counsel 
who could prosecute unfair labor charges? And if there is 
nobody there to prosecute them, is there somebody acting so 
that, in fact, at the Federal Labor Relations Authority, if 
there are such charges, you are not hindered in moving ahead 
because nobody is even processing unfair labor charges?
    Mr. Pon. I am aware that there are certain entities like 
the FLRA, as well as the MSPB, awaiting certain people to be 
confirmed so that those functions----
    Ms. Norton. And there is nothing that can be done at the 
moment then. They are just piling up. There is nobody acting 
that can begin to move on these, and therefore, move toward the 
management reforms you are suggesting?
    Mr. Pon. I believe that those two entities are waiting for 
confirmed appointees.
    Ms. Norton. I thank you, Mr. Chairman. I do need to know 
whether anyone can act; and I ask the committee to find out, if 
there is no general counsel who processes these charges, 
whether or not there is the possibility, perhaps even the 
committee can tell us whether it's possible that there could be 
somebody acting, so that, in fact, the agency, FLRA, can move 
forward. I appreciate it, Mr. Chairman.
    Chairman Gowdy. The gentlelady's unanimous consent request 
is without objection. The gentlelady yields back.
    The gentleman from Alabama, Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman. I thank the witnesses 
for being here this morning.
    First of all, I sense an indication that senior leaders, 
and I think you, Ms. Weichert, mentioned this. Some of the 
senior leaders in the agencies have reported some frustration 
over a lack of empowerment and ability to drive the changes 
that are needed. What are some of the impediments that they're 
facing? Is it just institutional? I mean, is this something 
that the culture makes it difficult to pursue change?
    Ms. Weichert. I think there are a number of factors that 
affect the ability to create the needed change. I think our 
President's Management Agenda lays out some of the specific 
elements that we're focused on, and areas where we're working 
across agencies to, and both across the political and the 
career representatives in that conversation; so things like 
hiring and firing authorities, things like performance-based 
compensation we're looking at, we're looking at attracting and 
retaining the best employees.
    Mr. Palmer. First of all, the fact that you have got senior 
leaders within the Federal agencies expressing these concerns 
seems to indicate that they support these changes and, you 
know, there are some that might lead you to believe that this 
is a great affront to Federal employees. And the fact that you 
also mentioned, specifically, some of these issues about hiring 
and firing. We've had issues of employee misconduct, now many 
of those have come before this committee, in which the people 
who were involved in the misconduct were, frankly, never 
punished. They were put on paid leave. I mean, we had one had 
stolen thousands of dollars' worth of equipment that was put on 
paid leave.
    Would that be part of the frustration?
    Ms. Weichert. Yeah, that's absolutely--and you're exactly 
right. The Deputy Secretaries who work with actually, you know, 
motivating and driving change through these agencies, they are 
concretely involved, and I'll actually mention something super 
edifying. We launched the President's Management Agenda from 
Kansas City on purpose because there are workforce members all 
over the country doing great work. And we also rolled it out 
here in D.C. after we rolled it out in the heartland. And every 
place we've gone, we've actually had workers, both front-line 
employees, and managers, tell us that they're glad that we're 
tackling these issues in an integrated way. And we look to 
collaborate and partner with Congress, with the good government 
community, and unions, to actually make progress on these 
issues because, as Congressman Meadows mentioned, we've been 
looking at these issues for a long time. These are nontrivial 
issues.
    Mr. Palmer. I'm going to lean into this a little bit and 
maybe step on some toes, and make some people uncomfortable. 
But Mr. Pon, you mentioned this, about the need for updating 
the IT systems; and with the improvements in technology which 
has improved productivity, one of the concerns that I have 
heard voiced is that you've got a lot of employees that frankly 
don't have anything to do. They can't be moved to another 
position. You can't lay them off; and that we're basically 
paying people that really are not productive. That's a yes or 
no. Is that a fair assessment, or do we need to dig into that a 
little bit more?
    Mr. Pon. No, I don't know if it's a fair assessment because 
I believe that the Federal workers can be skilled up.
    Mr. Palmer. I'm not saying they can't be. I'm saying that 
you have people who are not necessarily productive and that 
that----
    Mr. Pon. We need to manage that.
    Mr. Palmer. We need to manage that.
    Ms. Weichert. And I'll just jump in here and say there are 
a number of examples where projects that would save the 
American people money and make service better actually don't 
get done because we actually can't move the workforce to do 
something else productive.
    Mr. Palmer. Okay. And there's a reason I did this, because 
I want to connect the dots here. I don't think we're going to 
really improve productivity at the Federal Government until we 
improve both the civil service issues and the IT. And we are 
running into tremendous problems with improper payments, 
because we have got antiquated IT systems; and part of that is 
being able to attract top-notch IT personnel.
    I know a guy in University of Alabama Birmingham, turned 
out some of the top students in cybersecurity, who applied at 
the Federal Government, but they wait months to even hear back, 
and they are not going to do that. The private sector will snap 
them up. So any suggestions?
    Is this part of what we're trying to do is get our ability 
to hire the best talent?
    Mr. Pon. Yeah, we are. In regards to cybersecurity talent, 
we're having direct hire authority for many different agencies, 
with cybersecurity in particular. We're taking a look at those 
vocations. But to your point, you can't do it in silos. That's 
why the President's Management Agenda has those three gears. 
It's data, technology, and the workforce working together.
    Mr. Palmer. I'm really glad we're having this hearing Mr. 
Chairman. I'm excited that Mr. Pon is heading up the Office of 
Personnel Management; and Ms. Weichert, we're very grateful for 
your work.
    With that, Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman from Alabama yields back. The 
gentleman from Massachusetts, Mr. Lynch, is recognized.
    Mr. Lynch. Thank you, Mr. Chairman.
    The previous gentleman from Alabama mentioned nonproductive 
Federal workers. I'm sitting here in Congress and I can't 
remember the last time we passed a budget, so we don't have to 
look far to find some profoundly unproductive Federal workers. 
We only need to look at ourselves.
    Let me ask you, as Ms. Norton raised earlier, there is no 
counsel at the Federal Labor Relations Authority, and so right 
now, as we sit, there are charges and complaints before that 
authority that the Federal Government is refusing to bargain in 
good faith. But because we have no general counsel there, those 
charges keep on piling up, so there is no action being taken on 
them.
    If you think about the foundations of our labor law in this 
country, private employees have the right to strike. If that 
was happening to private employees--I used to be president of 
the Iron Workers--I'd take my men and women out on strike until 
that problem was resolved.
    But in its wisdom, Congress has taken away the right to 
strike from Federal workers. Now, the agreement was we would 
take away the right of Federal workers to strike because we 
were going to provide an arbitration and negotiations process 
through collective bargaining, by which they could address 
their grievances. Now, by nonfeasance, some would say by 
malfeasance, we have destroyed that system.
    So I am asking you, because we have taken the right of 
those people to have their issues resolved peacefully, and in a 
way that keeps the government going, shouldn't we restore the 
right to strike to Federal employees so they can get some 
action on their issues?
    It's not rhetorical. I'm asking you.
    Mr. Pon. Sir, I believe that the FLRA and the Office of 
Special Counsel, and also the Merit System's Accountability 
Board, they serve a vital function. In 1978----
    Mr. Lynch. They would if they were working.
    Mr. Pon. Correct.
    Mr. Lynch. Right now, we don't have counsel, so the problem 
I'm pointing to is that the system has broken down, and so 
these Federal employees are not having their issues addressed 
as we promised as a government when we took away their right to 
strike. And I'm just saying, fair is fair. If we're not going 
to put a system in place where they can have their rights 
protected and their grievances addressed, do we not owe them a 
restoration of their right to strike?
    Mr. Pon. I believe that those entities need to be working--
--
    Mr. Lynch. Me too.
    Mr. Pon. --and be staffed up so that they can serve their 
function.
    Mr. Lynch. Are we working on that?
    Mr. Pon. As appropriate.
    Ms. Weichert. Nominations have been submitted by the 
President, so we are waiting on them.
    Mr. Lynch. How long has it been? How long have we been 
without a general counsel over there? It's been a while.
    Mr. Pon. To the best of my knowledge, I do not know the 
specific dates, but it has been an extended time.
    Mr. Lynch. Okay. Let me jump to something else. We have got 
this new policy at the VA. And originally, it was to address 
some of the substandard care that we have been seeing in some 
of our VA hospitals. There were a couple of very troubling 
cases. So we put in a new system to get rid of workers that 
weren't measuring up.
    But the way the system--I have been following the data, and 
the data indicate that we are firing people who are food 
service workers, very lower-level housekeepers, custodians, 
like I say, you know, people that have nothing to do with why 
the law was passed. And I'm just curious about your own 
assessment of whether or not the law is being employed as 
intended?
    Mr. Pon. Sir, I think that the law was broad in terms of 
giving VA the authority to implement a performance management 
system across the whole entire Department and, in that 
application, all employees were under this system.
    Mr. Lynch. I understand that. But in the debate here in 
Congress, it was to help with the care of our veterans, to make 
sure they got the excellent care that they deserve and have 
earned by their courageous service. Here, we have random 
employees just being fired right off the bat. We have very 
little in terms of a grievance procedure for these employees as 
well. It's not what we talked about, and I'm just curious if 
there was any sense of refinement of that policy that you saw 
that might be needed. That's all.
    I know that my time has expired and the chairman has been 
very generous, and I yield back.
    Chairman Gowdy. The gentleman yields back. The gentleman 
from Georgia is recognized.
    Mr. Hice. Thank you, Mr. Chairman.
    This will go to both of you. Ms. Weichert, I'll begin with 
you. How would you characterize the relationship between 
Federal unions and the administration today?
    Ms. Weichert. So the administration supports the right of 
the Federal workers to organize, and we would like to have a 
productive dialogue on the items around the workforce of the 
21st century that are critical, both to the workers themselves, 
but also to the American people.
    I think the reality is there's a lot of partisan 
positioning that has made that difficult; but I would 
absolutely and genuinely say we believe that we need all of the 
people who care about good government and helping us deliver 
good government through the people in our workforce, that we 
invite those people to the table.
    Mr. Hice. Okay. You kind of went around the issue.
    Mr. Pon, how would you characterize the relationship 
between Federal unions and the administration?
    Mr. Pon. I think they're not so good right now. I'm trying 
to build a relationship with the union. Since I am new to the 
position of OPM Director, I'm wanting to meet with them, hear 
what they have to say about our ideas, make sure that there is 
open dialogue so that they can help us and we can help them on 
the things that we agree on. There's not too much right now 
that we can agree on, but at least we're having the talks that 
we can disagree on. I think that's a good first step for us to 
do, so that we can have some common understanding of what we 
can mutually work on. I look forward to making sure that we can 
change the next 40 years with employees groups.
    Mr. Hice. I do too. Let me go on with some further 
questions because, I mean, you're correct. The relationship is 
not good. The unions are fighting the President on almost every 
one of the issues right now that we're even discussing here 
today. So what are the challenges in trying to manage the 
relationship between unions and Federal managers?
    Mr. Pon. I think it's really because we have been in a 
system of government that has operated the ways in which it has 
for quite some time, layering on different types of bargaining 
agreements, layering on the different types of rules and 
regulations for due process. These things need to be taken a 
look at because it is very cumbersome.
    Managers that we visited around the country have said the 
one thing that you need to do is make sure that you manage bad 
performers. And I hope everybody can agree, we need to manage 
out bad performers. But the good performers, the people that 
have great skills, the people that are the civil service, I 
want to hold that up and make sure that they are held up in 
esteem.
    Mr. Hice. Yes. And it makes it very difficult to manage.
    Mr. Pon. Absolutely.
    Mr. Hice. One of the things that I've been particularly 
involved in over the last few years is official time, where 
union workers don't even do the work that they were hired to 
do. They're working for the union and doing a host of things.
    And all respect to Mr. Lynch a while ago, but the American 
people have a right to strike too, and it's their money that's 
paying for many of these people on official time who are not 
even doing their job. And yet, we don't have any opportunity to 
respond to that.
    Does the administration believe that this is in the 
taxpayers' best interest, Ms. Weichert?
    Ms. Weichert. So I think that is something that we would 
like that all the people focused on government be focused, 
first and foremost, on mission, service, and stewardship, and 
that last piece is about how do we use the scarce resources in 
a fiscally difficult time, to do the work that the American 
people brought all of us here to do.
    Mr. Hice. That'd be a great idea to get back to that.
    Mr. Pon, what do you think? Is official time, according to 
the administration, in the best interest of the taxpayer?
    Mr. Pon. Taxpayer-funded time needs to be taken a look at. 
We can't just write a report and say how much time is being 
used by each and every one of the agencies. We need to actively 
manage it. We need to shed some light on how it's being used or 
abused.
    Mr. Hice. So the Department of Education came out with--
they're making some pretty aggressive steps to try to address 
this. Is this something that could potentially spread to other 
agencies?
    Ms. Weichert. I think, absolutely, that people are looking 
at the stewardship angle, as you mentioned.
    Mr. Pon. And a lot of them are frustrated.
    Mr. Hice. A lot of us are frustrated too. A lot of people 
are frustrated. You hate to see your money go down the drain, 
and this is one of those areas. And I'm not opposed to people 
using official time, but number one, not on the backs of the 
taxpayers when they were hired to do something else.
    Mr. Pon. They need to do their jobs.
    Mr. Hice. Absolutely they need to do their job. I 
appreciate it.
    I yield back, Mr. Chairman.
    Chairman Gowdy. The gentleman from Georgia yields back. The 
gentleman from Maryland is recognized.
    Mr. Cummings. Mr. Pon, do you see official time as a major 
problem?
    Mr. Pon. Sir, I believe it needs to be examined.
    Mr. Cummings. That's not what I asked you. I said do you 
see it as a major problem?
    Mr. Pon. Perhaps in certainly agencies.
    Mr. Cummings. And Mr. Pon, you recently submitted to 
Congress a draconian proposal to cut more than $143 billion 
over the next 10 years from the pay and benefits of current 
Federal workers, retirees, future retirees, and even their 
surviving spouses and children. Is this really the Trump 
administration's idea of developing a 21st century workforce?
    That's a lot of money.
    Mr. Pon. These proposals are to make sure that we're making 
decisions around how we can operate the Federal Government in 
the 21st century. I do believe that we need to take a look at 
other vehicles, not just pensions, but actually defined 
contributions plans so that they become much more portable for 
people to leave government and come back with portable 
benefits, versus ones that are based upon tenure and also years 
of service.
    I don't know too many young Federal workers that are 
joining here are going to be working here for 20 years and then 
working here till 62.
    Mr. Cummings. Let me ask you this: In my office, there are 
two words that govern my office: effectiveness and efficiency. 
I assume that that's what you want too, right?
    Mr. Pon. Absolutely.
    Mr. Cummings. And it seems to me you take 143--it's one 
thing to be aiming at efficiency and effectiveness. It's 
another thing to take $143 billion out. Now, I could kind of 
understand if you were taking that $143 billion and saying, 
Okay, we know things are not working here, but now we're going 
to make sure that we put money into training and things of that 
nature so that we can get that effectiveness and efficiency.
    Are you doing that? Where does that $143 billion go to?
    Mr. Pon. So that's what we're intending to do. We're trying 
to use the working capital or workforce fund for those reasons. 
It's really targeting the different types of training that we 
have so we can up-skill our Federal workers and preserve and 
retain their jobs in the future.
    Mr. Cummings. So you're trying to tell me that that $143 
billion--and I haven't even started yet, because you all are 
taking a lot away from Federal employees. That $143 billion, 
you see that going into training now to lift up other employees 
so that they can be the very best that they can be, so that 
they can be most effective and efficient? Is that what you're 
telling me?
    Mr. Pon. The workforce fund is actual $1 billion, and it's 
at the GSA in the Office of Governmentwide Policy.
    Mr. Cummings. Well, what happened to the other $142 
billion? Come on, man.
    Mr. Pon. We're supporting the President's budget as puts 
and takes across the whole entire Federal Government.
    Mr. Cummings. Okay. I'm just curious as to what happened to 
the other $142 billion?
    Ms. Weichert. Yeah, so if I might interrupt.
    Mr. Cummings. Yeah, please.
    Ms. Weichert. So, in a fiscally-challenging time, the 
President's budget included a number of proposals, including 
the proposals that relate to the----
    Mr. Cummings. You mean, where we just added $1.5 trillion 
to the deficit?
    Ms. Weichert. That wasn't in the budget.
    Mr. Cummings. Yeah, okay. Go ahead.
    Ms. Weichert. But the recommendations are actually 
consistent around the workforce in what was in the nonpartisan 
Congressional Budget Office evaluations on compensation, and 
also consistent with things that came out in the bipartisan 
Simpson-Bowles Commission looking at fiscal responsibility. So 
I think that the most clear answer to the question, it's not a 
one-for-one moving from one place to another; it's looking in 
the entirety of government and our delivery model of service.
    When we actually look at the data that the employees 
themselves say about their biggest concerns, actually have to 
do about resources to get their job done.
    Mr. Cummings. I only have a few minutes. I don't have that 
really.
    Your proposal, Mr. Pon, would slash the pay and benefits of 
men and women who support our military, care for our wounded 
veterans, protect our homeland from terrorists and other 
threats, ensure that our air, water, and food are safe. How 
does that help the 21st century workforce?
    Mr. Pon. We're taking a look at it on balance, sir.
    Mr. Cummings. You don't think that would hurt the 
workforce?
    Mr. Pon. On the whole, we're looking at the whole entire 
way of looking at compensation benefits and total rewards.
    Ms. Weichert. And actually, the Federal workforce was 
satisfied with their pay and their satisfaction rate.
    Mr. Cummings. Whoa, whoa, whoa, whoa, rewind. Say that 
again?
    Ms. Weichert. Sixty-one percent----
    Mr. Cummings. They said they like the amount of money that 
they're making?
    Ms. Weichert. Sixty-one percent of Federal employees 
surveyed in the Federal Employee Viewpoint Survey were 
satisfied. Considering everything, how satisfied are you with 
your pay? That's actually above levels you would see in the 
private sector around pay, for example.
    Mr. Cummings. What about the COLA? One of your most 
egregious proposals is to slash $50 billion worth of cost-of-
living-adjustments from current retirees and their survivors. 
So you want to take from those who can least afford it and give 
to the richest among us. How is that fair?
    Chairman Gowdy. The gentleman's time is expired, but you 
may answer the question.
    Mr. Pon. Sir, respectfully, I think our retirement system 
is a bit out of whack, and the reason why I say that is I don't 
know of any other retirement system that actually pays for 
COLAs for annuitants. We're talking about annuitants, not 
Federal workers. When Federal workers actually get COLAs, it's 
a part of the factor in their salaries; and when they become 
annuitants, it is not up to the Federal Government for us to 
determine where they move in retirement and pay for their--
paying for where they live.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back. Votes have been 
called and we're going to try to squeeze the gentleman from 
Wisconsin in. We've got 10 minutes left in the vote. The 
gentleman from Wisconsin is recognized.
    Mr. Grothman. I'd like to thank you for being here today. I 
know we recently passed an omnibus bill and our discretionary 
spending is going up 18 percent this year. And I know there are 
people who have all sorts of ways to say 18 percent isn't 
enough, who want to go higher, but I appreciate that you don't 
feel that way.
    I'll start with you, Mr. Pon. Does the current general 
schedule pay system incentivize high performers to continue 
achieving at a high level?
    Mr. Pon. I think we need to take a look at the general 
schedule. I think it is title 5, it is the law. We're trying to 
improve title 5, but I think there is a greater need for 
looking at occupational series and having new pay systems for 
them that are much more flexible, and then we can manage term 
appointments much better.
    Mr. Grothman. Ms. Weichert, I'll switch to you. There are a 
lot of Weicherts in Wisconsin, so nice to see that last name.
    Could you explain the proposed interagency workforce fund, 
how it would work?
    Ms. Weichert. So basically, we requested, in 2018, a $1 
billion workforce fund that would allow us to spread across 
agencies in consultation with Congress and provide greater 
incentives around retention, recruitment, in high-skilled 
areas. We would also operate in a way that if people wanted to 
challenge and create new training or redeployment-type 
activities.
    Mr. Grothman. Okay. I'll ask you a general question, 
because I know exactly what I'd do to solve the problem. One of 
the criticisms of government is that everybody makes the same 
amount of money, right? They throw the grid out of there, and 
whether you just sit on your butt for 5 years or are the hard 
charger, you wind up with the same, right? Isn't that a 
problem?
    Ms. Weichert. Right.
    Mr. Grothman. Another concern is that if you are given too 
much flexibility, and we've certainly seen examples of this 
before this committee, people who point out problems, maybe 
even illegalities in their agencies, they don't move up at all. 
The boss doesn't--you know. Do you see any way to square that 
problem?
    On the one hand, you know, we want the better employee to 
get a bigger raise; but on the other hand, we just don't want 
the people to get a bigger raise, the ones who are, I don't 
know what the word I should use is. You know, the people who 
just try to ingratiate themselves to the boss.
    Ms. Weichert. Yeah. So I think it's a great question, and 
it's one of the classic underlying questions in all performance 
management and performance-based compensation programs. There 
is plenty of experience in the broader world of compensation, 
especially in the private sector, around systems that reward 
both the what, you know, mission, service, stewardship, and the 
how, how do you work with others.
    And so most successful programs are fact-based, they are 
consistent, they are supported by technology, and they try to 
really balance this.
    And, frankly, I think this is one the most critical issues 
that doesn't get enough discussion, because 31 percent, only 31 
percent of the employees surveyed actually believe that awards 
in my work unit depend on how well employees perform. So while 
61 percent are pleased with their own pay, most people don't 
think that pay and performance are linked at all.
    Mr. Grothman. In other words, they can think of some of 
their coworkers who are just time-servers who are getting 
increases?
    Ms. Weichert. Exactly.
    Mr. Grothman. And I take it another problem is, if you are 
really a go-getter, then maybe you leave the government.
    Ms. Weichert. Yeah. Yeah.
    Mr. Pon. We're going to change that.
    Mr. Grothman. Okay. Good. Do you feel you can change that? 
I'm kind of--don't exactly know an answer.
    Mr. Pon. There are Federal employees that are amazing 
Federal workers, despite the culture that we have that we 
cannot manage bad performers out or it's very difficult to do 
that. It's a disincentive for them to stay.
    I want to make sure that there is differential pay, market-
based pay, so that we can, as a government, retain the best and 
brightest for our Federal Government. That's what they deserve 
and that's what they need.
    Ms. Weichert. And I think we can actually make a difference 
today because we want this to be a bipartisan discussion. We 
want it to be a discussion between Congress and the executive 
branch.
    And so we need this to be an inclusive conversation because 
this isn't just rhetoric, we really want to make a difference 
here. Because when I look at it from sort of 30,000 feet, if we 
don't, we don't have a delivery model for the 21st century.
    Mr. Grothman. I appreciate both you folks for coming over. 
I yield my final second.
    Chairman Gowdy. The gentleman yields back. We will now 
recess subject to the call of the chair and reconvene 
immediately after votes.
    [Recess.]
    Chairman Gowdy. The committee will come to order.
    The gentleman from Maryland, Mr. Sarbanes, is recognized.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    I want to thank the panel.
    I have been struck because your testimony, for the most 
part what you're saying, the rhetoric of it sounds pretty good, 
talking about mission and service and stewardship, you're 
talking about making sure that we support the best within our 
Federal workforce, et cetera. But managing scarce resources, we 
understand we live in a world where money doesn't grow on 
trees.
    But then you come with what is what I would say is a 
scandalously irresponsible budget proposal in terms of this cut 
of $143 billion in terms of the salaries, pensions, other kinds 
of benefits, as you look over time. And there was some 
discussion back and forth about relationships with the Federal 
employee unions and so forth and they could be better.
    It seems to me it's not a good operating premise to go into 
the room with the unions--or with the workforce, just the 
workforce--and say, we're going to take a baseball bat or a 
meat cleaver to the budget that's supporting your operations. 
And after we do that, then we want to sit down and have a 
constructive discussion about all the ways we can find new 
efficiencies, streamline things, and so forth.
    You're not going to get people to stretch, to be creative, 
to be innovative, to self-reflect, which are admirable goals. 
And Max Stier will be testifying on the second panel. 
Partnership for Public Service has come forward with a lot of, 
I think, constructive suggestions about how the Federal 
workforce and the leadership within it can adjust themselves 
for the future.
    But to maximize the opportunity that that will happen, you 
can't at the same time come in and say, we're going to pull 
billions and billions of dollars of resources away from the 
operations of these agencies.
    So I just philosophically don't agree with the approach 
because I think that it's counterproductive.
    I did want to talk a little bit about how you're going to 
provide for the 21st century workforce, because most of the 
statements of consequence that have come from leadership within 
the Trump administration seem to suggest that the main goal is 
to just reduce the size of the Federal workforce, without 
regard to the impact that it may be having on operations.
    Director Mulvaney issued a memo last April directing 
agencies to submit downsizing plans that include long-term 
workforce reductions. President Trump wanted us to get a long-
term plan in place to reduce the size of the Federal 
Government's workforce through attrition.
    So how are you going to recruit the workforce of the future 
if you're coming with these dramatic cuts? If the stated goal 
is just to reduce the size, without, it appears, regard for 
whether you're impacting the efficiency, the effectiveness, as 
my colleague from Maryland, Congressman Cummings, has spoken 
to, how are you going to get people to come join up, the best 
and the brightest, in that kind of an environment?
    Ms. Weichert. So I think they're all really valid 
questions, and that's precisely the set of problems we're 
trying to square. So square the issues of mission, service, and 
stewardship in a fiscally challenging environment.
    I think that the key thing in all of this is actually 
looking at what are out-of-the-box ways of doing this, and 
taking the best learning from players like folks in the private 
sector who have been there and done this before.
    There are many private sector organizations who faced with 
fiscal challenges have gotten together with unions, have 
figured out how did they energize the workforce. We are 
actually going to the workforce itself. It's not rhetoric and 
it's not showboating to go to Kansas City and meet with nearly 
a thousand Federal workers and----
    Mr. Sarbanes. Well, here's what I'm worried about. And I'm 
sorry to interrupt because I'm going to run out of time. I know 
that there's many employees in these Federal agencies right now 
who, just based on the activity, the fiscal constraints, the 
cuts that have been imposed on them over the last few years, 
have 50 files in their pile where they used to have 25, where 
having 15 would be a reasonable workload. And the cuts being 
proposed are going to put another 50 in that pile and make it 
100 folders in that pile.
    And at the same time you're raising the stack of files that 
they have got to deal with at the IRS or Social Security or 
Veterans Administration or whatever, you're saying, oh, let's 
now have a conversation about how to streamline and be 
efficient and be innovative and creative. And that is not a 
fair burden to put on somebody, if you have those expectations 
of them.
    So I would urge the administration to reconsider these cuts 
because I think they are counterproductive to some of the 
stated goals that you have here today.
    With that, I'd yield back.
    Chairman Gowdy. The gentleman yields back.
    The gentlemen from Florida is recognized, Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Welcome.
    Dr. Pon, we have seen situations where some of the union 
contracts that are done extend far beyond the life of that 
particular administration, and some folks, I know, like in the 
CFPB, there was a contract done in I think late 2016, that has 
limited the ability of the new Director to make some reforms.
    So is that good policy, to tie the hands of future 
administrations? I mean, if you're going to do these union 
contracts, I mean, shouldn't there be an opportunity for the 
new administration to come in and at least renegotiate?
    Mr. Pon. I think the Director of OPM needs to have that 
power and needs to have that authority, whether you're on one 
side or the next. It's actually doing the business of the 
government, making sure that you can negotiate on behalf of the 
government and in good faith making sure that you can make 
deals with it.
    Tying the hands of the OPM Director does you no good in 
managing the government, diffusing the powers of the Director 
of OPM. I don't know of any corporation or nonprofit 
organization that doesn't want their head of HR to be 
responsible for the head of HR. And at times that's difficult 
because there is such a diffusion of responsibilities.
    Mr. DeSantis. So performance and firing people for poor 
performance--I think we have a very high quality Federal 
workforce. But at the same time, I mean, if you look at the 
number of people who are terminated for poor performance, it's 
like point-zero-something percent. And there's no business, 
there's no industry in the country where 99.9-plus percent are 
doing an adequate job, I mean. And so it's very difficult to 
hold people accountable.
    And one of the most recent examples, tragically, was the 
FBI handling of Parkland, Florida. You had had people calling 
into this hotline in 2016--or 2017--complaining about this guy, 
identifying as a possible shooter. Then 2018, same thing 
happened. Actually, the lady who called was a phenomenal--I 
mean, she provided all this information, was worried about the 
school. The FBI actually matched it in the database, knew it 
was the same guy, and decided to do absolutely nothing with 
that.
    Now, they have admitted that that falls far below the 
standard of acceptable performance, and yet there was no firing 
of anybody, at least to my knowledge. I mean, it certainly 
wasn't within a month of this. And there was a stress on due 
process and all this other stuff, and I understand that.
    But what about the right of the American people to have 
some accountability if people drop the ball and don't protect 
them? Shouldn't there be a way that people are going to be held 
accountable for that swiftly.
    Mr. Pon. I agree with that. We need to make sure that we 
can manage bad performance, and we need to make sure that is 
stressed. Our President in the State of the Union basically 
said to every single secretary, award the great performance of 
the United States, but get rid of the bad performers.
    And I intend to make sure that there's enhancements and 
streamlining effects so that you can have a single process for 
making sure you can manage performance, manage people out that 
need to be out.
    Mr. DeSantis. How long would that process take? I mean, you 
know, some of these folks are on leave forever, and I think 
that could just move people around. You have a poor performer, 
you've given them an opportunity to improve, they haven't. 
What's a reasonable time to say, ``Okay, move on with whatever 
process''? Because I think the process ends up just eating up 
the accountability where you don't end you having any.
    Mr. Pon. Yeah. Each agency has collective bargaining unit 
agreements and sometimes these timeframes can go on for years. 
That is not reasonable, obviously. In any enterprise, if you 
have a bad actor in your own organization, you need to 
basically take care of it in a reasonable amount of time--with 
due process. But due process is not 2 years, it's more like 3 
months to 6 months at the most.
    Mr. DeSantis. How do you ensure the--I mean, the model of 
the civil service was that it wasn't going to be political. You 
know, it used to be an administration would come in, they'd put 
their cronies in, the next one would come in, they'd put--and 
they're like, yeah, no, we just want professionals and to be 
apolitical.
    But that is kind of good in theory, but that hasn't worked 
in practice. I mean, the IRS targeting scandal was something 
that was very problematic. We on this committee did a lot of 
it. The Justice Department paid a settlement to all these 
conservative groups for having been targeted for their 
political beliefs.
    And we see some of it with some of the oversight of, like, 
the FBI, with some of the agents who were really, really saying 
some things and appeared to have their actions motivated by 
political bias.
    So how do you deal with that? I mean, you can do great at 
your job, have all kind of political opinions, but when it 
starts infecting the actual actions or the work product, like 
it did when the IRS and like I believe we have seen evidence of 
with the FBI, you know, how do we--how do you guys do it? Is 
there anything we can do to just make sure that we're following 
the administration's directives and we're not acting as 
individual political agents----
    Mr. Pon. We need to remind everybody about the law, merit 
system principles. We need to make sure that there is proper 
education, training, and enforcement of that.
    I know the next panel, my colleague, Bill Valdez, is going 
to be representing SEA, Senior Executives Association. We're 
talking with one another to make sure that we can have our 
senior executives be the career senior executive service 
without politics.
    That's really the mainstay of the Federal Government, the 
executives that are nonpolitical. We hold them up to a higher 
standard than making sure that the political agendas get taken 
care of. They run our government. We entrust them and direct 
them to do certain things. But if it's in a partisan way, we 
need to make sure that there's accountability.
    OIG has been taking a look at these things in different 
agencies, but I think that there should be actually a real hard 
look at some of these quote, unquote, partisan type of 
activities within our career civil service.
    Mr. DeSantis. Thanks.
    Chairman Gowdy. The gentleman from Florida yields back.
    The gentlelady from New York is recognized.
    Mrs. Maloney. Thank you, Mr. Chairman.
    And I thank the panelists.
    President Trump and his administration have been downsizing 
Federal offices and agencies since the first day he took 
office. On day one he prohibited agencies from filling vacant 
positions, and I would say the downsizing began on day one.
    Then, on April 12 in 2017, OMB Director Mick Mulvaney 
issued a memorandum directing agencies to submit downsizing 
plans by September that include, and I quote, ``long-term 
workforce reductions.''
    But OMB has kept this reorganization plan secret. When 
Ranking Member Cummings wrote to OMB asking for copies of the 
plans that agency produced for OMB, he received this refusal 
from Mr. Mulvaney. And he wrote, quote, ``The deliberative 
process within the executive branch will continue to play out 
in an iterative fashion.'' Meanwhile, OMB continues to work 
with agencies to begin taking certain administration actions.
    So, Mr. Chairman, I ask unanimous consent to put the letter 
that he sent Mr. Cummings and Mr. Cummings letter into the 
record.
    Chairman Gowdy. Without objection.
    Mrs. Maloney. Okay. Thank you.
    And OMB's response is the polite way of saying that we're 
not going to give you any of the reorganization plans, even 
though we are reorganizing. So I wonder if Congressman Mulvaney 
would have tolerated receiving such a response when he was a 
member of this committee.
    So my question, Ms. Weichert, OMB's description of a 
deliberative privilege to evade congressional oversight is not 
acceptable. Can you provide a legal opinion justifying citing 
that privilege at this time?
    Ms. Weichert. I'm not an attorney, so I'm not going to 
provide a specific legal opinion.
    What I can say is it is not the practice of OMB to share 
internal deliberative documents prior to the release of an 
actual report.
    And we expect to be releasing the reorganization and reform 
report in the coming weeks, and that will really start the 
broader public deliberation process. And I think there will be 
plenty of opportunity for this body to have conversations about 
that.
    I'd also like to share the fact that in the private sector 
leading practice around reorganization takes very seriously the 
disruption to the actual ongoing work of the workforce when 
reorganization is taking place. And leaking out or dribbling 
out items that have not yet been determined is actually fairly 
disruptive and somewhat disrespectful.
    So it is our view that by sharing, when we publish this 
report in a few weeks, a holistic view that includes all of the 
deliberations, all of the inputs, that include, in addition to 
the inputs that we got from agencies, it also includes public 
comment, it includes data from the Federal Employee Viewpoint 
Survey, and it includes leading practices.
    Possibly most importantly, it also includes a lot of data 
from the General Accountability Office about the High Risk List 
and areas where workforce is part of that. It also includes a 
list of duplicative processes and duplicative activities of 
agencies.
    So I'm hopeful and very happy to continue to have this 
conversation going forward when we are out of the predecisional 
standpoint.
    Mrs. Maloney. Well, it's already started, the downsizing 
and the reorganization, without sharing any of this 
information.
    And to give one example, in June the Department of Interior 
began reassigning dozens of career senior executives and other 
civil service employees. And we learned this not because of any 
sharing of information, but because of press reports. And many 
of these senior executives were totally left in the dark and 
knew nothing about what was taking place.
    The President's 2019 budget proposal states that a 
departmentwide reorganization plan will be implemented 
utilizing a combination of attrition and separation. So are 
attrition and separation deliberate tools in use by Secretary 
Zinke to downsize the Department of Interior, Ms. Weichert?
    Ms. Weichert. So I can't comment on all the specifics of 
Secretary Zinke's proposal. I think the items that were able to 
be done through an individual agency were included in the 2019 
budget proposal that you have seen.
    But I'd pull up a bit to say, the original language around 
reform and reorganization was really about good government. And 
in really digging in and looking at the data on this topic, the 
focus is not primarily on downsizing. The focus is primarily on 
mission, service to the American people.
    And then where stewardship is problematic we need to align 
the overall size. But a lot of what we're actually seeing is if 
you deploy information technology appropriately, you may be 
able to think differently about the numbers of resources that 
you have.
    Mrs. Maloney. We haven't seen the plan. All we've seen is 
press reports and reports from workers of downsizing.
    Now, the Founding Fathers loved journalism, protected 
journalism, but they also wanted a checks and balance between 
the executive and the legislative branch. And right now all our 
information is coming from journalism, not from the executive 
branch or a sharing of responding to the oversight 
responsibilities of the legislative branch.
    I hope that that changes with the report you say you'll be 
sending out in----
    Ms. Weichert. Yes.
    Mrs. Maloney. --you said weeks. Do you have a time limit?
    Ms. Weichert. It's in the clearance process now, so I can't 
give an exact date, but it's in the coming weeks. And we would 
like to have it be as holistic and thoughtful as possible.
    Mrs. Maloney. Thank you.
    Chairman Gowdy. The gentlelady yields back.
    I'll recognize myself, and I'll be the last questioner.
    Ms. Weichert, I think it was you in your opening that 
mentioned a diminution of trust, public trust in the government 
in general, not just employees, but government in general. Is 
there any data? And what does it show in terms of what 
generates that distrust? Because it would be tough to work for 
an entity that people didn't trust.
    Ms. Weichert. So the data that I referenced there is 
referenced in the document, the President's Management Agenda, 
which I could bring out additional components.
    But we actually looked at specific areas, and we highlight 
in that report what the particular areas of problem that the 
American people have. And in a lot of cases I think the issues 
are issues of balance and issues of: Is government focused on 
the right issues? Are they primarily focused on mission? Are 
they focused on giving people the services they need when they 
want them, when they need them?
    I think a lot of the distrust actually comes from the 
hyperpartisan kind of dialogues that they see on the 
television. And what we see when we've done some of these 
listening tours, talking to Federal employees, talking to 
citizens all over the country about what they're looking for, 
they value the services that our employees deliver. They 
absolutely appreciate when FEMA is there to rescue them from a 
flood or a USAID employee is there to help protect their home 
in a fire, whether they are in California or Wyoming.
    But what they don't like is all the blockages to getting 
things done the right way, and when they have to hang on hold 
forever, if they're trying to deal with death benefits, if 
they're a survivor of a veteran, things of that nature.
    Chairman Gowdy. So there is an efficiency component, if I 
heard you correctly, and then there's just the general 
political environment that we find ourselves in, and that when 
you constantly hear how untrustworthy government is, it tends 
to, shockingly, have an impact on the listener from time to 
time.
    Ms. Weichert. Absolutely. And I feel like we've got an 
opportunity, and I mean this most sincerely. Good government is 
an area where I absolutely believe we can have bipartisan 
support. I've actually been completely gratified by the types 
of dialogues I've had with Members of this body and other folks 
about these issues. So I really believe we can help change both 
the outcomes and the process.
    Chairman Gowdy. All right. Well, this is what I want you to 
do for me. I've heard you use the word ``bipartisan'' a couple 
of times, I've heard Chairman Meadows use it a couple of times. 
But I also had a really good opportunity to listen to the 
ranking member's opening statement, and it was not 
complimentary on the Trump administration and how they view 
Federal workers.
    Lay aside the fact that I disagreed with most of it and 
have been a Federal worker for a large part of my life, as have 
other Members on my side. Take the time I have left and 
convince, not us, but people who may be watching that this 
administration and the changes you proposed are rooted and 
motivated in a respect for Federal workers and a desire to make 
it better.
    Ms. Weichert. Absolutely. And I think a lot of this starts 
with listening. And I heard what the ranking member said, and I 
think these are very valid concerns. They're not unique 
concerns to government. These are issues that our fellow 
citizens, whether they work in government or they work in the 
private sector face. They face challenges of dislocation. They 
face concerns about taking care of their families and doing 
their daily business.
    We need to have a fact-based conversation. And, you know, I 
think it starts in this particular instance with the data 
around the Federal Employee Viewpoint Survey, and it starts 
with: How do we address the problems the Federal employees 
themselves find to be the biggest barriers to serving the 
American people?
    And when I look at those things, there's things around 
performance-based compensation, there's things around do they 
have the resources to do their job, it's things around are the 
right merit system principles in place so that the best people 
get the best compensation and the worst people aren't there to 
disrupt the work of everyone else.
    I think those are the things that we legitimately are 
trying to use a fact base to tackle and then use the tools that 
blend the best of IT modernization, the best of data and 
analytics, with helping elevate the work that our American 
workers do to serve the American people.
    Chairman Gowdy. I'm out of time. And I'm going to recognize 
the gentleman from Missouri.
    There have been a number of witnesses throughout the time 
I've been on this committee that have sat at the table where 
you are, and they have described conduct that is not just poor 
performance, it is trending towards criminal. In fact, had it 
been reported and investigated and prosecuted, it would have 
been criminal.
    So under the general heading of morale, I would think not 
having to work for someone who is simply moved from position to 
position after credible allegations of sexual harassment, I 
would think being able to terminate that kind of conduct, that 
is not poor performance, that's criminal.
    So to the extent that you can address that, it would be the 
right thing to do and also good for morale.
    With that, the gentleman from Missouri.
    Mr. Clay. I thank the chairman.
    And thank you all for being here.
    March the 20th, 2018, President Trump issued his 
President's Management Agenda. I read through it, and the PMA 
estimates that many Federal workforce occupations could be 
automated, including 5 percent of occupations that could be 
automated entirely, 60 percent of occupations that could have 
30 percent-plus of their activities automated, and 45 percent 
of total work activities that could be automated.
    Let me share with you so you can share it with the 
administration, no one on the chairman's side would defy this. 
But what's so important about government service and the 
service that the government renders to the citizens of this 
country is the person-to-person interaction.
    So, I mean, I'm looking at this and saying, well, you're 
trying to reduce the workforce, which is going to hamper 
government's ability to interact with its citizens, it's plain, 
unless you can tell me otherwise. Isn't that the end result of 
this?
    Ms. Weichert. No, actually, I appreciate the question and 
the concern, but what we're focused on are precisely the kind 
of things that the gentleman from Maryland mentioned earlier 
around if the pile of paper on the desk of a Federal employee 
keeps stacking up because it's paper-based, they actually can't 
serve our citizens in a face-to-face way.
    And a concrete example was after Hurricane Harvey the Small 
Business Administration designated some zones as special SBA 
areas. And the Federal workers who were trying to help get 
people money to start up businesses and restart communities are 
taking information that was input on a system over here, print 
it out, and then rekey it over here. Thirty percent of their 
time was spent on that activity, which isn't directly serving 
people, and they could have given a faster response.
    Mr. Clay. Okay, I appreciate what you're saying, but you're 
also talking about cutting down the number of Federal workers. 
Is that right?
    Ms. Weichert. So I think that's not the primary goal. When 
we actually did the empirical analysis about jobs when we were 
looking at this, there may be 5 percent of jobs that are purely 
possible to be automated. But we also have more than that 
number of jobs that we can't fill. And so reskilling and 
redeploying resources is part of what we're looking at.
    Mr. Clay. I have a limited amount of time. And I'm just 
saying for the committee's concern, they know better. They know 
better, because it's about when we interact with our 
constituents.
    And it may be that they need a visa or a passport from the 
State Department. They may need to get their Federal records of 
service in our military so they can bury a loved one in a 
Federal cemetery. Anything. But they need to talk to a live 
person, not a machine. That's what this is about.
    Let me ask both of you. I read through your proposals to 
slash benefits for Federal workers and retirees, and I was 
appalled. One of the most breathtaking proposals is the 
provision to eliminate COLAs for employee death benefit and 
child annuity.
    Let me see if I understand this proposal correctly. You and 
President Trump want to cut COLAs for widows, widowers, and 
orphans.
    Look, I just read what you sent us. I don't know how else 
to interpret this proposal other than to see it as a sign that 
you and President Trump and this administration are attacking 
widows and orphans who rely on COLAs just to keep up with 
inflation. And eliminating or reducing COLAs would erode their 
benefits over time.
    This is why you want to do that, to save us money? Is that 
right?
    Mr. Pon. Sir, respectfully, thank you for your question. I 
do think that COLAs serve a very important purpose for having 
COLAs as a Federal worker. But when you are an annuitant, the 
government does not control an annuitant's residence, and 
government is actually paying the annuitant, survivor, widower, 
child a COLA based upon their choice of where they live versus 
where they work.
    Mr. Clay. So am I able?
    Mr. Meadows. [Presiding.] We've got a second panel. So I 
thank the gentleman for his keen interest on this particular 
item.
    I want to thank the two witnesses for their insightful 
testimony. I'm hopeful that this is the start of something new 
after 40 years, and I believe that it will be. I appreciate the 
commitment from both of you for being here.
    And we're going to stand in recess for just a few minutes 
while we set up for the second panel.
    [Recess.]
    Mr. Meadows. The Subcommittee on Oversight and Government 
Reform will come to order, and I'm pleased to introduce our 
second panel.
    Obviously, we've been interrupted a number of times today 
on votes and everything else, but I thank you for your patience 
and for following this key area. So I'm going to go ahead and 
introduce you. I think Mr. Connolly is on his way.
    Mr. Bill Valdez, president of the Senior Executives 
Association. Mr. Max Stier, president and CEO of the 
Partnership for Public Service. And Ms. Jacqueline Simon, 
policy director for the American Federation of Government 
Employees.
    Welcome to you all. And pursuant to committee rules, we'll 
ask that you be sworn in. So before you testify, if you'll 
please stand and raise your right hand. I don't know that this 
is your first rodeo for any of you.
    So do you solemnly swear or affirm that the testimony 
you're about to give will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Let the record reflect that all witnesses answered in the 
affirmative.
    And as you know, in order to allow time for the back and 
forth, if you'll limit your oral testimony to 5 minutes, we 
would appreciate that. Your entire written statement will be 
made part of the record. And so you're recognized for 5 
minutes.

                            PANEL II

                       WITNESS STATEMENTS

                    STATEMENT OF BILL VALDEZ

    Mr. Valdez. Mr. Chairman and members of the committee, I'm 
honored to represent the views of the Senior Executives 
Association because we believe the President's Management 
Agenda provides an opportunity to have a thoughtful and a 
constructive discussion about modernizing the 1978 Civil 
Service Reform Act.
    The PMA correctly states that the decline in public trust 
in government can be directly linked to public perceptions 
about the effectiveness of the Federal workforce. I am 
convinced that the vast majority of civil servants are 
effective stewards of taxpayer dollars. I know this because 
U.S. taxpayers routinely see the results of this dedication 
through our secure homeland and improvements to our economic 
productivity.
    If this is true, why then have public perceptions of the 
performance of civil servants declined? I believe the answer 
lies in structural deficiencies in the CSRA.
    The CSRA has served our Nation well, but it was passed over 
four decades ago. The internet was the stuff of science fiction 
and the Cold War was in full bloom.
    Today, the Internet of Things is transforming our society 
and international terrorism is our premier national security 
challenge.
    Put simply, the CSRA has not kept pace with these tectonic 
shifts in our society. Decades of haphazard tinkering has 
created a Frankenstein monster that hinders the ability of 
civil servants to deliver optimal value to taxpayers.
    Dr. Pon, in his testimony, referenced a number of latent 
flaws in the CSRA that must be remedied. I agree, and I believe 
that those flaws fall into four major buckets. In the interest 
of time, I will address three of these four buckets, but I 
refer you to my written testimony for a full discussion.
    The first is performance accountability systems are 
antiquated. Prior to the CSRA, the Civil Service Commission was 
the one-stop shop that ensured that civil service merit 
principles were upheld. The CSRA, however, created the MSPB, 
the Office of Special Counsel, the FLRA, and the EEOC.
    All of these forms have their purpose, but the unintended 
consequence of a performance management system that enables 
poor performers to forum shop and delay the resolution of their 
cases.
    We need to return to basics. There are two reasons why an 
employee can be dismissed from Federal service, misconduct and 
poor performance. We must update the CSRA to provide an 
expedited forum for performance issues and let the other forums 
be used for their original purposes.
    Second, hiring and retention practices have become 
ossified. When I was looking for work in 1978, I went to the 
classified pages of my local newspaper, and if I was really on 
the ball, I would go door-knocking. I was operating in an 
information void that gave employers all the leverage.
    Today, job seekers are much more empowered. They can search 
the internet for jobs, and LinkedIn lets them know if an 
employer is worth pursuing. In other words, the leverage has 
shifted during the past 40 years from the employer to the 
employee when it comes to hiring and retention.
    Yet, as Dr. Pon clearly articulated, we have a hiring and 
retention system that is mired in 20th century practices. It is 
not nimble, it is not effective, and we are losing the talent 
war as a result.
    We need to completely rethink the General Schedule, the 
classification system, and how we incentivize high performance. 
If we do this, we will create a work environment that is 
aligned with the needs of the current generation of workers.
    And then, third, the CSRA has exacerbated the career-
political divide. The CSRA created the Senior Executive Service 
as a bridge between administrations and to serve as expert 
advisers to administrations as they pursued their agendas. It 
also mandated that 90 percent of the SES slots be reserved for 
career SES and 10 percent for noncareer SES. Today, most of 
those noncareer positions are filled by political appointees.
    This SES framework has had two unintended consequences. 
First, political SES are increasingly occupying operational 
positions, such as CFOs and principal deputies, that were 
previous filled by career SES.
    Two problems with this: Politicals rarely come into office 
with the knowledge needed to manage these programs, and when 
they leave there is a leadership vacuum that stops government 
in its tracks.
    Second, career SES have indicated in SEA surveys that they 
believe they are being excluded from decisionmaking. NYU 
researcher Paul Light analyzed the results of more than 40 
failures of government over the past 20 years and he pinpointed 
faulty leadership decisions as the primary reason for those 
failures.
    SEA strongly believes that if we properly align career and 
political leadership roles, these failures could be mitigated.
    In closing, let me again thank you for this opportunity to 
discuss these important issues. And I would just note that if 
the current Frankenstein workforce model that I've described 
has resulted in so much good for our Nation, imagine what 
dedicated civil servants could deliver with a modernized Civil 
Service Act.
    [Prepared statement of Mr. Valdez follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Meadows. Thank you, Mr. Valdez.
    Mr. Stier, you're recognized for 5 minutes.

                     STATEMENT OF MAX STIER

    Mr. Stier. Thank you, Mr. Chairman, Congressman Raskin. 
It's a pleasure being here and it's terrific that you're having 
this hearing. You're going to hear a build-on to some of the 
things that Bill just said, and that's all to the good, because 
I think there is some real common ground here.
    The starting point is we do have a legacy government that 
is not keeping up with the world around it. How could it? It is 
a 40-year-old system. No other organization is operating under 
the same rules as it did 40 years ago, and some of the stuff 
even predates that. I'm not going to belabor that. I'm going to 
give you five statistics that help set the stage here.
    Number one, only 6 percent of the Federal workforce is 
under the age of 30. That is number is closer to 23, 24, 25 
percent in the private sector.
    When you look at a specific segment there, number two, 
there five times as many people over the age of 60 as under the 
age of 30 in the IT profession inside the Federal Government. 
The Federal Government spends $80 billion to $90 billion in IT. 
Almost 70 percent of that goes to operation and maintenance. 
That is a big challenge.
    Number three, fewer than half of Feds believe that their 
good work is recognized. That number is more than two-thirds in 
the private sector. No organization gets better if all you do 
is kick it, and that's what we have right now.
    Number four, barely over 60 percent believe that they can 
raise a violation of law or ethics without fear of retaliation. 
So Chairman Gowdy raised a very important point. You can't 
operate in an organization, especially a large one, if that 
information doesn't get to leadership. If that information 
won't get there, the people inside don't feel that they can 
trust their leaders. Come back to that later.
    And then last, almost half of employee attrition occurs in 
the first 2 years.
    So kudos to this administration for their PMA. I think it's 
strong. One of the things that's really important to focus on 
is that it's actually a continuation of what the Bush 
administration did and the Obama administration did. That kind 
of continuity is absolutely vital.
    So, quickly, 10 things you can do about it that are very 
concrete.
    Number one, you have to hold the top leaders accountable. 
The most significant difference between government and any 
other organization is that top leaders aren't held accountable. 
They don't own the organizations they run. They don't believe 
that they're responsible for making them better. They're 
rewarded for crisis management and policy development.
    And that has to change. You can do that by requiring 
transparent performance plans, by having oversight hearings 
around management issues, and having a scorecard on some of the 
issues that I just identified in the data.
    Number two, we need to fix that hiring process. On average, 
it takes the Federal Government more than 100 days to hire 
someone. That number is more than double what you'd see in the 
private sector. I just saw a study today that said only 12 
percent of job applicants would wait more than 30 days for a 
job. That's a giant problem.
    How do you deal with that? We ought to have direct hire for 
recent grads. That's really important if we're going to get 
young people into government. You need to change the standard 
for direct hires so that it's around a shortage of highly 
qualified individuals rather than minimally qualified 
individuals. And we need to use student interns, something that 
almost never happens in the government that ought to happen.
    Number three, you need a market-based pay system. The pay 
system was created not 40 years ago, but over 70 years ago, and 
it was for a world in which most of the workforce was clerical.
    Today it's all profession. The nature of work has changed. 
You have a medical center director for the VA that can't be 
paid more than the SES cap, and they're competing with people 
that are being paid more than a million dollars. Ain't 
happening, and it has big impacts. You need that market-
sensitive pay system.
    Four, we need to develop better career leaders. Improved 
management is the way you're going to make the whole 
organization work better. You need to look at the military as a 
model. We need to be more investment in training new 
supervisors. And creating a dual track so people who are 
subject matter experts who need to be promoted can be promoted 
to subject matter experts and don't have to go into management 
to get promoted. That would make a huge difference.
    Five, we do need to deal with the accountability issue. 
That's what the survey shows. Firing Feds faster isn't going to 
get you there. Better management will.
    One idea there is to use the probationary period, right? 
Change the presumption. If you aren't actually affirmatively 
determined to deserve Federal service, then you don't stay, 
rather than the reverse, which is what happens now.
    Six, we need more mobility. We need a workforce that 
actually is getting best practice from the private sector and 
having good people here spend time in the private sector. That 
means more public-private talent exchange.
    We need this pass forward notion where people who are in 
the Fed go out into the private sector, develop skills. They 
have to be hired at the same level that they're now qualified 
to come in rather than the level that they left in, which makes 
no sense.
    Mr. Stier. Number seven, customer service. That's an area 
of huge opportunity here. There's legislation on the floor now 
where that is in the House. One of the big barriers right now 
is that the Paperwork Reduction Act doesn't allow government 
agencies to collect the data they need voluntarily. That's an 
easy fix, and would allow agencies to do what they want to do, 
which is to get feedback and use it to make their activities 
better.
    Eight, we need to create a culture of recognition. 
Something you are highly aware of we added a Sammie's finalist 
to the testimony, and you're doing great stuff in terms of 
visiting agencies.
    Nine, we need to use data better, like the Federal 
Employee's Viewpoint Survey.
    And lastly, we need to address the lack of political 
leadership, and that includes, bluntly, having fewer political 
appointees and fewer that require Senate confirmation.
    [Prepared statement of Mr. Stier follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Meadows. That's the best use of 5 minutes that I've 
heard in 6 years. Thank you very much for the action items.
    Ms. Simon, you're recognized for 5 minutes.

                 STATEMENT OF JACQUELINE SIMON

    Ms. Simon. On behalf of the 700,000 Federal and D.C. 
government workers represented by AFGE, I thank you for the 
opportunity to testify today on the President's Management 
Agenda, the PMA.
    Its soothing words and colorful photographs try to convey a 
sense that the document is a thoughtful and modern approach to 
the management of the Federal workforce and the agencies that 
employ them. Unfortunately, those pretty pictures mask a dark 
intent, which is to sabotage the operation of Federal agencies 
by degrading the Federal workforce.
    If the PMA were implemented, it would sabotage the civil 
service and agency missions incompatible with this 
administration's political priorities. Paradoxically, the PMA 
would shrink the Federal workforce, while simultaneously 
increasing cost to taxpayers by shifting work from public 
employees to more expensive contractors.
    That's right. While proposing to lower the cost of the 
Federal workforce by cutting compensation, it also proposes to 
replace that workforce with the more costly and less 
accountable contractor workforce. Federal employee pay, 
benefits, job security, and due process rights are clearly in 
the cross-hairs of this administration.
    Despite the language about seeking to attract the best 
people to government, the document clearly contemplates making 
Federal employment less desirable by cutting pay and benefits 
and weakening job security.
    Having more government work performed by contractors puts 
agency missions at risk. Increased contracting out undermines 
management control, as well as the public service ethos. By 
law, contractors' first loyalty must be to their private 
profits, not the public interest. But duty and loyalty to the 
American public should come first for those doing our 
government's work.
    The PMA would politicize government functions and 
operations. Besides the erosion of due process rights, Federal 
employment, even for those putatively still in the civil 
service, would become an elongated probationary period, 
consisting of temporary and term appointments. Federal 
employment would devolve to a modified at-will employment, with 
employees beholden to political or commercial interests that 
would determine their future livelihood.
    The administration's proposals to cut Federal retirement 
benefits by $143 billion billion over 10 years should be 
categorically rejected. Federal employee compensation has 
already been cut by $246 billion over 10 years, about $123,000 
per employee over the period.
    The retirement system cuts that simultaneously charge 
employees more and deliver less are not motivated by any 
concern about the system's financial solvency. The Federal 
Employees Retirement System is fully funded as is. No cuts are 
necessary.
    No, the motivation is something much darker. Likewise, the 
proposed cuts to paid leave and Federal employee health 
insurance benefits are entirely unnecessary and seem to be 
driven by nothing more than a desire to reduce the living 
standards of Federal employees.
    Please do not think of Federal employees as nameless, 
faceless bureaucrats who do nothing but impose unnecessary red 
tape on heroic entrepreneurs. They are our brave border patrol 
agents who protect us from criminals engaged in human and 
narcotic smuggling. They are our Social Security claims reps, 
helping your grandmother navigate her benefit eligibility.
    They are our nurses at the VA Medical Center holding the 
hand of a dying veteran. They are mothers and fathers and 
church choir leaders and PTA presidents. They should not be the 
objects of hatred and disdain. They are middle class Americans 
trying to get by and raise their families, and they should not 
be losing paid leave, having their health insurance made more 
expensive, or their pensions reduced.
    It is a noxious myth that today's workers, or tomorrow's 
workers, don't want or need job security. Just because the gig 
economy has made employment for so many Americans unstable and 
insecure doesn't mean the Federal Government should follow 
suit.
    Indeed, contingent workers, like adjunct professors and 
Uber drivers are doing whatever they can to organize so that 
they can obtain stable career employment.
    The administration's apparent goal of making the Federal 
Government an employer of poorly compensated contingent workers 
is not, I repeat, is not what the workforce wants; not older 
workers, not mid-career workers, not younger workers. No 
Federal worker wants his compensation cut or her job security 
taken away.
    For all the reasons described above, we think the best way 
to describe the President's Management Agenda and the 
administration's personnel management agenda is a set of worst 
practices. The PMA is a worst practices document that would 
sabotage government agencies.
    This concludes my testimony. I would be happy to answer any 
questions you may have.
    [Prepared statement of Ms. Simon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Meadows. Thank you, Ms. Simon. Thank each of you for 
your testimony.
    I'm going to recognize myself for a series of questions. So 
Mr. Stier, let me come to you. The Federal Employment Viewpoint 
Survey that I talked about earlier with the first panel, do you 
believe that that's a critical tool for helping us understand 
the viewpoint of Federal workers?
    Mr. Stier. Absolutely. I think it's incredibly useful data. 
It's useful as an aggregate, but it's even more powerful when 
you look at smaller components of government and compare and 
contrast what you see, because there is huge variation across 
agencies and within agencies, and there's a lot to be learned 
from that.
    Mr. Meadows. So if we're looking across agencies like that, 
as we have had in a previous hearing, OPM was looking at 
changing the questions, obviously is running a pilot. Is this 
something that you would support?
    Mr. Stier. I think you always have to look at how to 
improve things. There's a lot of value in having the benchmark 
data available to you. So I think changes, you have to be 
careful about what you do change so that you can be able to 
compare over time. I do think there are some things this year 
they're doing a full census rather than a sample, and I think 
that makes for much, much better data as well.
    So I think there are places that you can have improvement. 
The biggest improvement would be turning around the data 
faster.
    Mr. Meadows. So, I believe earlier this year that the 
Department of Veterans Affairs made a decision to cease 
offering the Federal Employee Viewpoint Survey. So at first, if 
you don't succeed, change the matrix in terms of what you 
measure that success. I say that, obviously, tongue-in-cheek.
    I would assume that that's not something that you support?
    Mr. Stier. So interestingly, in this instance, I think the 
important thing, again, is to have comparable data.
    Mr. Meadows. So are they going to compare the data?
    Mr. Stier. Yes. And my understanding is that they're also 
planning on doing quarterly poll surveys.
    Mr. Meadows. So what you're saying is they're going to take 
the model and actually improve on it?
    Mr. Stier. Yes. So, as long as it's comparable. One of the 
challenges in the government is that it's often not looked at 
an integrated enterprise.
    Mr. Meadows. So what are they doing to make sure it's 
comparable?
    Mr. Stier. Well, one, they're talking to OPM is my 
understanding, and they're talking to us as well. And to my 
mind, the biggest positive is the idea that if they want to 
make it management useful, having it more regularly available, 
i.e., on a quarterly basis, is very powerful. So you're not 
waiting more than a year to get back information about whether 
what you're doing is working. So I think that is actually a 
best practice that more agencies should be doing. You don't 
have to ask the full 80-plus questions, but to target smaller 
groups of questions and have them taken more often is actually 
really good.
    So, again, I think there are some real positive there. Your 
basic point is the right one, which is, no agency should be 
going off and doing it on its own in a way that doesn't enable 
the transparency.
    Mr. Meadows. Yeah, I guess what I want to do is make sure 
that I've got a benchmark so that I'm not comparing an apple to 
an orange. So what you're saying is that you believe that we 
can accomplish that?
    Mr. Stier. I believe so, and I think, in fact, we might get 
more or a nicer apple too.
    Mr. Meadows. All right. So Ms. Simon, let me come to you. 
From your opening testimony, obviously you're not a fan. So how 
do we fix some of the problems that we have? Or is it your 
testimony that we don't have any problems?
    Ms. Simon. Well, obviously, there are problems in the 
Federal Government.
    Mr. Meadows. So how do we fix them, because we've got a 40-
year old system, and so, you know, tactically, the plan that's 
been laid out, I guess you said it had a dark component to it. 
So how do we make it, in your mind, a great way to make sure 
Federal workers get properly recognized, compensated, 
evaluated, the ability to hire and fire; knowing that that is 
like nails on a chalkboard maybe to your union-covered 
employees. But how do we make sure we do that?
    Ms. Simon. Well, the idea of hiring and firing and properly 
rewarding employees is anything but nails on a chalkboard. The 
short answer is through the collective bargaining process.
    Mr. Meadows. So you're saying everything can be solved if 
we just had good negotiators and collective bargaining. I mean, 
history does not--you've had collective bargaining for the last 
40 years, so if we've got a problem and we've had collective 
bargaining, how is that going to solve it?
    Ms. Simon. I'm not sure that you and I would agree on what 
the big problems are.
    Mr. Meadows. That's why I'm asking the question. I truly 
want to know if this is not the right approach, what's the 
right approach?
    Ms. Simon. Okay. I think that one of the big problems 
currently, you know, very currently, is an effort to politicize 
the work of Federal agencies. We see that in the Environmental 
Protection Agency, for example, where----
    Mr. Meadows. You mean with more political appointees, or 
just political appointees you don't like?
    Ms. Simon. It's not the political appointees that I like or 
don't like, it's their attempt to thwart the work of scientists 
in the agency to----
    Mr. Meadows. So how does collective bargaining fix that?
    Ms. Simon. I think that you have protections where 
scientific integrity can be written into a collective 
bargaining agreement that can protect the ability of Federal 
employees to carry out the mission of the agency without fear 
of retaliation from political appointees.
    Mr. Meadows. So you're saying a collective bargaining 
agreement would be paramount to any administration directive? 
Is that what you're saying?
    Ms. Simon. I do think that there is a tremendous risk right 
now in this highly politicized environment that----
    Mr. Meadows. But this is not the first time. I mean, it's 
not just this administration.
    Ms. Simon. This is the first time in my experience and I've 
been doing this for over 30 years.
    Mr. Meadows. So this is the first time that there's been a 
political environment in the Federal workforce. That's a bold 
statement.
    Ms. Simon. It's substantially worse than it's ever been.
    Mr. Meadows. And what matrix do you have that? I mean, 
you've got a matrix for that?
    Ms. Simon. Yea.
    Mr. Meadows. What matrix?
    Ms. Simon. There was a short period of time during the 
George W. Bush administration where claims representatives at 
the Social Security Administration were required to inform 
claims applicants that----
    Mr. Meadows. That's anecdotal. So what matrix do you have, 
Ms. Simon?
    Ms. Simon. I'm not sure what you mean by matrix.
    Mr. Meadows. You're saying it's worse than it's ever been. 
What quantitative matrix do you have to support your----
    Ms. Simon. Reports from our members in almost every agency.
    Mr. Meadows. So you can get those reports to this 
committee?
    Ms. Simon. They aren't necessary always written reports.
    Mr. Meadows. Well, that's not quantitative.
    Ms. Simon. I can certainly give you information that 
demonstrates that Federal employees in several executive branch 
agencies feel as though there are political pressures on them.
    Mr. Meadows. So that's not a matrix, Ms. Simon.
    Ms. Simon. I don't know what you mean by matrix.
    Mr. Meadows. Well, I'm a math guy, so let me just tell you. 
Just like with his surveys, you can look at the matrix and say 
this many employees said this, that, and another. That's a 
matrix, and that's what I was asking you for, and apparently 
you don't have that.
    Ms. Simon. I can put something together for you but it 
wouldn't be very scientific.
    Mr. Meadows. Okay. I recognize--Mr. Raskin has been here, 
and so a very generous 6 or 7 minutes.
    Mr. Raskin. Thank you, Chairman Meadows. What a pleasure to 
have you sitting in that seat today.
    Thank you all for your testimony.
    I wanted to start by asking Ms. Simon something, following 
up on a point she made about the President's proposal to lower 
the cost of benefits for present and future retirees by $143 
billion billion over the next decade. One of those proposed 
cuts is for retirement annuities that qualifying Federal 
employees earn, and I've got tens of thousands of those who 
live in my district in Maryland. And this retirement annuity 
provides a fraction of the income that they earned while they 
worked.
    It's called FERS, and they paid for the annuity over the 
course of their working lives. The proposal is to increase the 
amount that they pay for it, but not to increase the amount 
that they get back from it. So I just want to be clear, does 
this proposal really translate into a pay cut?
    Ms. Simon. Well, there's two answers to that question. 
First answer, yes, it does. The proposal is to shift cost for 
the provision of that benefit from the government to the 
employee. Right now, that would mean for most Federal 
employees, most Federal employees who are under FERS pay 0.8 
percent of their salary for their FERS annuity. Under this 
proposal, eventually they'd pay about 7-1/4 percent of their 
salaries for the annuity.
    The annuity itself would also be lower. So they would 
simultaneously pay more and receive less.
    Mr. Raskin. And get less. Okay.
    Ms. Simon. It would not--the trust fund that finances the 
benefit is fully funded under the current benefit formula. This 
is not about financial solvency of the retirement plan.
    Mr. Raskin. Okay. Mr. Valdez, so will this effective pay 
cut, the change in the retirement annuity package, affect 
supervisor and managers and senior executives under the 
proposal?
    Mr. Valdez. Sure. Yeah. It affects all Federal employees.
    Mr. Raskin. Okay. And so, and this question may be I will 
come to you, Mr. Stier. I enjoyed very much your testimony 
because you had some concrete positive ideas about how we might 
move forward. But, of course, what we're getting instead is a 
proposal just to cut, cut, cut.
    What's the effect of that on the workforce? I mean, 
intuitively, it would seem like that's demoralizing, but give 
me your sense as an expert in the field?
    Mr. Stier. Well, look, we have data, and what is shows is 
that the Federal workforce is below a reasonable private sector 
norm in terms of their engagement, and substantially so. So 
what's most striking about the data is that when it comes to 
mission commitment, that's the one place the Federal workforce 
far exceeds that private sector norm. People who are in the 
government are there because they want to serve the public and 
they want to fulfill whatever mission is associated with the 
agency that they are employed at.
    Where they are being held back from achieving that mission 
is mostly through their leaders, and so that's the place where 
you will have biggest bang for the buck is improving the 
overall leadership, and that's from the top down. And there are 
a lot of very, again, positive things to do to address that.
    Mr. Raskin. Got you. What do you think needs to be done in 
order for us to be having the right conversation about 
remoralizing the workforce, uplifting everyone, and making it 
more efficient and effective?
    Mr. Stier. In a minute.
    Mr. Raskin. No, less than a minute because I've got two 
more questions.
    Mr. Stier. Okay. So sorry. I would say that we have done a 
report on the broader civil service reform. If you force me to 
focus on one point, that would be really on that leadership-
ownership point. One thing I did not say, which I should have 
said, is that it's the executive branch leaders but it's, 
bluntly, you and all of Congress, too. Congress is a steward of 
the executive branch and could do better in oversight, in the 
underlying legislation, on providing real longer-term budgets, 
and obviously, in confirmation, which is not your piece.
    Mr. Raskin. Right. There was some discussion earlier about 
this whole controversy about so-called official time, which is 
the idea that representatives at the workforce can do 
representation of people in the workforce on their official 
time, on their official duties, without losing their progress 
toward retirement and so on.
    And I made a visit the other day to the PASS office in my 
district, which is under the FAA, but it's--they do work like 
air traffic controllers and develop all the maps and so on. And 
what I heard from both the managers there and the workers there 
is that the official time process has been critical to 
absorbing the shock of a lot of cuts that have come forward 
because the official time enables representatives of the 
employees to sit down with management to transition to new 
projects.
    And I'm just wondering whether you think this attack on 
official time is, in fact, warranted and justified, or whether 
it's something that is very much part of the culture of the 
Federal workplace today?
    I don't know, Mr. Valdez, perhaps you've got some thoughts 
on that.
    Mr. Valdez. Yeah, I think the discussion about official 
time actually relates to your question, Mr. Meadows, about the 
matrix. We don't know enough to be smart on this issue. There 
hasn't been a good set of data developed to show what is being 
done at different agencies in terms of official time and what 
those practices are, so I think a lot of this rhetoric is----
    Mr. Raskin. Well, the ones that I spoke to, again, the 
Professional Aviation Safety Specialists, the PASS office they 
thought it was just critical in order to do their jobs to have 
all the employees represented at the table when they are 
actually developing new work regimes.
    Mr. Valdez. There's no question, you know, from our 
perspective at the Senior Executive Association, that there 
should be official time. But, you know, I think there are 
questions about whether or not it has been an effectively 
utilized resource in the Federal Government.
    Mr. Raskin. Okay. I think I've taxed the patience of the 
chair. Thank you very much, Mr. Meadows.
    Mr. Meadows. Thank you for your insightful questions. The 
chair recognizes the gentleman from Virginia, Mr. Connolly, for 
5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And welcome to our 
panel. Mr. Valdez, I was intrigued by your last observation. We 
don't really have enough data to give Mr. Meadows the matrix 
he's seeking on official time. You would agree?
    Mr. Valdez. Yes.
    Mr. Connolly. I find that remarkable, given the fact that 
this committee has actually had hearings condemning official 
time, characterizing it as, you know, something that ought to 
be restrained, constrained, curtailed. How can we do that if we 
don't have the data you say we don't have?
    Mr. Valdez. I don't have a response to that question.
    Mr. Connolly. Uh-huh. Okay. Just thought I'd make the 
point. It works both ways when we want matrices. Data is data.
    Mr. Meadows. If the gentleman will yield.
    Mr. Connolly. Of course.
    Mr. Meadows. My matrix had nothing to do with the official 
time.
    Mr. Connolly. Oh, I know. I thought I'd just throw that in. 
But your matrix had something to do with, I think collective 
bargaining and the union?
    Mr. Meadows. With regards to performance. How do we know 
where we are, and that is why Mr. Stier has always seen a warm 
welcome in a bipartisan way.
    Mr. Connolly. So, Ms. Simon, some things were characterized 
as anecdotal, but the fact that there was a 3-year Federal pay 
freeze, and there's another one in the President's budget this 
year, that's not anecdotal. That's a fact; is it not?
    Ms. Simon. That's correct.
    Mr. Connolly. The fact that benefits were curtailed, the 
money actually taken out of Federal employees pockets to the 
tune of about $190 million, all in the name of debt reduction, 
that's a fact, not anecdotal; is that correct?
    Ms. Simon. Yes.
    Mr. Connolly. And the fact that, for example, this 
committee passed a 2-year probationary time period for future 
employees of the Federal workforce, again, that's not 
anecdotal. We actually did that; is that correct?
    Ms. Simon. Yes.
    Mr. Connolly. Now, I'm just spitballing here, but could 
collectively, those kinds of actions, to say nothing of verbal 
disparagements of the Federal workforce which, by the way, was 
not anecdotal. The first significant negative comment with 
respect to the last 8 years actually came from the person who 
became Speaker of the House, John Boehner, when he gave a 
speech in the fall of 2010 in Cincinnati, in which he 
explicitly disparaged the workforce, being overpaid, 
incompetent, too many, all that kind of thing.
    By the way, from somebody who said the Federal Government 
ought to be run like a business; I don't know a CEO of a 
business who would hold his or her job doing that to the 
workforce; but that's neither here nor there.
    But that actually happened. Does this have an impact on 
morale and productivity?
    Ms. Simon. Of course it does. And I've been listening to 
people talk about the Federal Employee Viewpoint Survey as if 
it were some kind of oracle. You know, people are fed a 
particular list of questions that are, certainly, a good 
portion of them are leading questions, and they are designed to 
provide data to make a certain kind of case.
    They also sort of bypass the union as the representative of 
the workforce. And trust me when I tell you, we hear a lot of 
complaints, and people, throughout the Federal Government, many 
of whom are military veterans, certainly in the Department of 
Defense and the Department of Veterans Affairs, large 
percentages, up to a third of the civilian workforce in the 
Department of Defense and in the Department of Veterans Affairs 
are veterans themselves.
    And the rhetoric that surrounded the accountability law 
that was passed last year was so harsh and so demoralizing and 
defamatory to that workforce, as if they don't care about the 
welfare of veterans.
    Mr. Connolly. I'm going to run out of time, but I do want 
to say, the chairman of this session is not one of those 
people. I mean, to my friend, Mr. Meadows' credit, he has gone 
into Federal agencies and actually had work sessions with 
employees to hear their perspective to learn more. I wish all 
of our colleagues took the time to do that, because there is 
such a sense of angst created by this kind of rhetoric and this 
kind of behavior.
    I'm going to run out of time, so if you don't mind, Ms. 
Simon, I'm going to ask Mr. Stier and Mr. Valdez one last 
question.
    Impact on recruitment. We're going to lose--I mean a huge 
percentage of the current workforce is eligible for retirement. 
How do we find the replacement, especially at the higher end 
skill set, with this kind of context, with this kind of 
negative or hostile context with respect to the Federal 
workforce and attitudes toward the Federal employee coming out 
of this body, current administration, and previous 
administrations, as my friend, Mr. Meadows, points out. How do 
we do that?
    And then I'll, of course, yield back my time.
    Mr. Valdez. I think, and it's an excellent question, and I 
think back to the 1970s when the military was under such 
attack, you know, following the Vietnam War and the, you know, 
morale in the military was so low. It's sort of analogous to 
what's happening today.
    What I think is important that we restore a sense of 
purpose to the Federal Government worker, and a sense of the 
nobility of public service; and that is a bipartisan effort 
that needs to be done, and it needs to be done in conjunction 
with Congress. You know, the American people deserve a good 
government, but they are not going to get it with the kind of 
rhetoric that we are hearing in the press and elsewhere.
    Mr. Stier. So look, I think this is a very real problem, 
and we heard the question earlier from the other chairman about 
trusting government, and I think it's a fundamental issue 
because we need--our government's our only tool for collective 
action to address our most critical problems that has the 
imprimatur the public and the taxpayer resources behind it. 
It's a critical element of our democracy, and we have a set of 
problems, and what you're describing is a real one.
    But it's a little bit like the house with the leaky roof 
that's also on fire, and you've got to deal with the fire 
first. The fire first is that we don't have leaders, either on 
the executive branch, or here in Congress, that truly own the 
organization that they're responsible for. They are rewarded 
for crisis management, policy development but not for making 
their organizations better.
    I would posit that if you required some sort of score card 
on the data points we've talked about already and developed 
better ones, had real transparency around whether the leaders 
are performing in a way to drive that number up when you ask 
how many people can raise a violation of law or ethics without 
fear of retaliation, that would have a bigger impact.
    If you require those leaders to take responsibility for 
recruiting great talent in, that's not something that happens 
today and it does happen in every other good organization.
    Mr. Connolly. Thank you. Mr. Chairman, thank you for your 
patience. I ask unanimous consent to enter into the Record 
testimony of Anthony Reardon, president of the National 
Treasury Employees Union.
    Mr. Meadows. Without objection.
    Mr. Connolly. I thank the chair.
    Mr. Meadows. I thank the gentleman for his kind words, and 
right before I recognize the delegate from the District of 
Columbia, Ms. Simon, I want to point out one thing because I'll 
forget it if I don't do it now.
    In your testimony, you talked about displacing Federal 
workers with subcontracted or the like contracts. Just know 
that the gentleman from Virginia and myself agree on this 
point, that displacing Federal workers with subcontracted 
services is not a good plan in my mind, unless it truly does 
make us more efficient, and you will find someone who actually 
supports that position really vigorously, because I think at 
times, we act like we are saving money by just subcontracting a 
service out, and so I wanted to point that out.
    So I recognize the gentlelady from the District of Columbia 
for 6 minutes.
    Ms. Norton. Thank you, Mr. Chairman. Thank you for pointing 
that out. That would be a matrix that we would have to measure 
as well if we subcontract.
    I'd like to ask the three of you, is my recollection of 
statistics correct that the Federal workforce is the most 
highly educated workforce in the country?
    Ms. Simon. As a group, the answer is yes. On average, and 
in terms of its median educational attainment, yes.
    Ms. Norton. That's what I would be going by, speaking of 
matrices. Yes.
    Mr. Valdez, Mr. Stier?
    Mr. Valdez. I actually am not familiar with that statistic, 
so I'll rely upon my colleague to the left.
    Ms. Norton. Mr. Stier?
    Mr. Stier. I think you're entirely correct that it's a 
workforce that has a very high level of educational attainment 
and expertise, and that's one of the reasons why we need to see 
a different system because 40 years ago, it looked very 
different, and what we've seen overall----
    Ms. Norton. 40 years ago, it was----
    Mr. Stier. It's a workforce that has been moving from much 
more in the way of clerical activity to much more 
professional----
    Ms. Norton. And that's really the point I'm getting to. If 
we're going to have these, have the best workforce in the 
country because of the nature of the work, Federal work, are we 
recruiting people at the same level that the private sector is, 
when you consider technology and at the same level so that we 
would end up with the same, with a parity workforce today?
    Are we keeping up, in other words, with the competition 
that we're facing from abroad and from every place else as we 
try to make sure we maintain these standards?
    Mr. Stier. My answer would be no, I don't think we are.
    Ms. Simon. I would say that people still want to work for 
the Federal Government because the work is so important. But 
there are certainly concerns about the relentless attacks on 
the compensation package, with threats to reduce the number of 
days of paid leave, threats to shift costs for health insurance 
and retirement benefits, and turn everybody into either a term 
or a temp employee, with no any kind of career tenure. It makes 
the Federal Government a much less attractive proposition than 
it was even a few years ago.
    Mr. Valdez. I spent my time at the Department of Energy, 
which is a highly technical organization, and we didn't have 
trouble attracting the kind of high talent, high level talent 
that we needed. But I would agree that there has been, you 
know, in recent years a reluctance, particularly among young 
people, to enter Federal service when they have options in the 
private sector.
    Ms. Norton. I really did have in mind that generation of 
millennials who, ultimately, are going to have to replace--they 
seem to be very opportunistic in how they look for work.
    I'd like to follow up on this official time notion because 
we have had hearings on that, and I believe that, in the course 
of collective bargaining, the Department of Education may have 
actually dispensed with official time?
    Ms. Simon. For all practical purposes this faux contract, 
and it's certainly not a contract, because a contract requires 
two parties, right? This was implemented unilaterally. Official 
time has been eliminated for all representational work.
    Ms. Norton. So I don't understand how a collective 
bargaining contract can work at all if there's no official time 
in order to attend to--so somebody needs somebody to handle 
their particular grievance. That's what official time is 
largely for. How is that done?
    Ms. Simon. Well, under this what we call it an edict, 
sometimes, faux contract because, again it was not collectively 
bargained, it was imposed unilaterally. The union 
representative has to ask his or her supervisor for permission 
to take some time off of work and----
    Ms. Norton. Are you saying the person has to take leave?
    Ms. Simon. Leave without pay, yes. And it has to, they have 
to gain permission from the supervisor. It might be the same 
supervisor against whom a grievance has been filed. And then 
that representation has to occur either outside--it's 
impossible. There's no representation.
    Ms. Norton. Well, has the union done, your union or other 
Federal unions, done any work to document how that is 
happening? In other words, are people willing to ask for that?
    I mean, I'm sure some people want to do it as good union 
people, but we need some evidence of what the effect is. I 
think that's the only agency that's done that.
    Ms. Simon. Thank God, so far. It's been about 6 weeks. 
We're really put in a corner because, as you know, we have a 
legal obligation to represent members of our bargaining unit.
    Ms. Norton. Is anybody suing? You actually have a legal 
obligation. Under the law, is there a lawsuit about being 
deprived of official time which would enable carrying out that 
legal obligation?
    Ms. Simon. Well, we've filed an unfair labor practice 
complaint with the FLRA, but without a--the FLRA can't rule on 
it right now.
    Ms. Norton. Because they don't have--we went through that 
in the first panel.
    Ms. Simon. Yes. And I'm not an attorney, so I can't really 
talk about our legal strategy.
    Ms. Norton. Well, I am one, and I ask you to ask your own 
general counsel to look into what I see as--I don't care what 
the FLRA, if they get counsel or not, unless they correct this, 
it does seem to me to be a violation of the ability to bargain 
at all. So, I don't want to predict the outcome, but it's a 
lawsuit just waiting to be filed.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentlewoman for her questions. I 
thank each of you for your testimony, and here's what I would 
like to ask each of you to do. Actually, Mr. Stier, put a 10-
point plan out there. So Mr. Valdez, if you're willing to look 
at that 10 points, and if you need a copy of it, we'll get it, 
but I'm sure you already have it. If you'll look at how, from 
your perspective, some of the concerns you have with it, and 
some of the ways that you could implement it, and report back 
to this committee within 60 days. Can you do that?
    Mr. Valdez. Absolutely.
    Mr. Meadows. All right. Ms. Simon, if you would do the same 
thing. And I hate to use Mr. Stier's 10 points as kind of the--
but in your testimony, here's--you suggested that there was 
some concerns that you had in terms of some of the areas, so 
I'd like you to look at his 10 points and, from your 
perspective, say these are areas that we have real concerns 
with. These are some areas that we think that we could support. 
And that way it doesn't come in one bucket. We can take this as 
the benchmark and all look to that, because what I'd like to do 
is, from both of your perspectives, be able to take the 10 
points that he's recommending, which really comes from really 
the Federal employees.
    I mean, those recommendations come directly from input, and 
I know that you were not positive about the way that they get 
that input because it bypasses the unions. But at this point, 
it's really the only data that we have as I go down looking at 
the data in terms of what Federal employees are saying.
    And so if you could do that, Ms. Simon, and report back in 
60 days, same timeframe.
    Ms. Simon. I'd be happy to do that. However, I would also, 
with your indulgence, like to share with you maybe a couple of 
collective bargaining agreements because they really show what 
the priorities of Federal employees are.
    Mr. Meadows. Certainly, if you want to get that along with 
that submission, but 60 days, is that enough time, Ms. Simon?
    Ms. Simon. Yes.
    Mr. Meadows. Okay. And Mr. Stier, here's what I would like 
to ask of you. As you look at this, if you could look at it 
from your perspective of the two different opinions we may 
have, from our senior executive, and then from our covered 
employees, if you could look at it and say, from an oversight 
standpoint, here's some of the areas that you have to be really 
concerned about. If you could get that back in the same 60 
days, if that would be appropriate.
    So, again, thank you to all of you for your testimony and 
your graciousness for being here so late.
    And if there is no further business before the committee, 
thankfully, we will go ahead and adjourn.
    [Whereupon, at 4:45 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]


</pre></body></html>
